<html>
<title> - JIHADIST USE OF SOCIAL MEDIA</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
  JIHADIST USE OF SOCIAL MEDIA--HOW TO PREVENT TERRORISM AND PRESERVE 
                               INNOVATION 

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON COUNTERTERRORISM
                            AND INTELLIGENCE

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 6, 2011

                               __________

                           Serial No. 112-62

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

                 [GRAPHIC(S) NOT AVAILABLE TIFF FORMAT]
                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               ----------

                        U.S. GOVERNMENT PRINTING OFFICE 

74-647 PDF                       WASHINGTON : 2012 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois                  Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         Hansen Clarke, Michigan
Ben Quayle, Arizona                  William R. Keating, Massachusetts
Scott Rigell, Virginia               Kathleen C. Hochul, New York
Billy Long, Missouri                 Janice Hahn, California
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Robert L. Turner, New York
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director

                                 ------                                

           SUBCOMMITTEE ON COUNTERTERRORISM AND INTELLIGENCE

                 Patrick Meehan, Pennsylvania, Chairman
Paul C. Broun, Georgia, Vice Chair   Jackie Speier, California
Chip Cravaack, Minnesota             Loretta Sanchez, California
Joe Walsh, Illinois                  Brian Higgins, New York
Ben Quayle, Arizona                  Kathleen C. Hochul, New York
Scott Rigell, Virginia               Janice Hahn, California
Billy Long, Missouri                 Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)
                    Kevin Gundersen, Staff Director
                    Alan Carroll, Subcommittee Clerk
              Stephen Vina, Minority Subcommittee Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Patrick Meehan, a Representative in Congress From 
  the State of Pennsylvania, and Chairman, Subcommittee on 
  Counterterrorism and Intelligence..............................     1
The Honorable Jackie Speier, a Representative in Congress From 
  the State of California, and Ranking Member, Subcommittee on 
  Counterterrorism and Intelligence..............................     3

                               Witnesses

Mr. William F. McCants, Analyst, Center for Naval Analysis:
  Oral Statement.................................................     6
  Prepared Statement.............................................     7
Mr. Andrew Aaron Weisburd, Director, Society for Internet 
  Research:
  Oral Statement.................................................     8
  Prepared Statement.............................................    10
Mr. Brian Michael Jenkins, Senior Advisor to the President, Rand 
  Corporation:
  Oral Statement.................................................    13
  Prepared Statement.............................................    14

                                Appendix

Mr. Evan F. Kohlmann with Josh Lefkowitz and Laith Alkhouri:
  Prepared Statement.............................................    27


  JIHADIST USE OF SOCIAL MEDIA--HOW TO PREVENT TERRORISM AND PRESERVE 
                               INNOVATION

                              ----------                              


                       Tuesday, December 6, 2011

             U.S. House of Representatives,
                    Committee on Homeland Security,
         Subcommittee on Counterterrorism and Intelligence,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 311, Cannon House Office Building, Hon. Patrick Meehan 
[Chairman of the subcommittee] presiding.
    Present: Representatives Meehan, Cravaack, Long, Speier, 
and Higgins.
    Mr. Meehan. The Committee on Homeland Security, 
Subcommittee on Counterterrorism and Intelligence will come to 
order. The subcommittee is meeting today to hear testimony 
regarding the emerging threat of the use of social media by 
terrorists.
    I note that we expect there to be votes some time after 
3:00, 3:30, and we will do our best. We are very grateful for 
the presence of this distinguished panel and grateful for your 
important testimony, but we will do our best to work through 
the testimony and try to get to as many questions as we can.
    At this moment, I recognize myself for an opening 
statement. I want to welcome today's Subcommittee on 
Counterterrorism and Intelligence hearing on the ``Jihadist Use 
of Social Media.'' I would like to thank you all for joining us 
today, and I especially want to thank our panel of witnesses 
for testifying on this issue.
    Over the past year, the subcommittee has been examining 
threats to the United States homeland from around the world. We 
began to look at al-Qaeda in the Arabian Peninsula, and an al-
Qaeda affiliate in Yemen with a sophisticated media wing led by 
Anwar al-Awlaki, which included Inspire magazine.
    We then turned our attention to the tumultuous events in 
the broader Middle East, and considered how al-Qaeda and other 
terrorist networks would use the upheaval to their advantage. 
Later we held hearings on the threat from the terror networks 
in Pakistan, from Hezbollah's operations in the Western 
Hemisphere and then last week on the emerging threat from 
Nigeria's Boko Haram.
    One common theme throughout all of these hearings was that 
terrorist networks are spreading their message, recruiting 
sympathizers, and are connecting operationally on-line.
    For years, terrorists have communicated on-line, sharing 
al-Qaeda propaganda or writing in on-line forums dedicated 
entirely to the prospect of Islamist terrorism. But they have 
recently evolved with technological changes, utilizing social 
media sites such as Facebook and YouTube to enhance their 
capabilities. The same place the average person posts photos 
and communicates with family and friends are being used by 
enemies to distribute videos praising Osama bin Laden.
    Terrorists also disseminate diatribes glorifying the murder 
of innocents and even make connections with each other 
intentionally or internationally to plot attacks. In the case 
al-Awlaki, jihadists live on virtually even after they have 
been physically removed from the battlefield.
    Prior to entering Congress, I served as the United States 
attorney in eastern Pennsylvania. Shortly after my tenure 
ended, a local woman by the name of Colleen LaRose was arrested 
on her return to the United States as part of a terror plot 
that targeted a Swedish cartoonist.
    LaRose would later become known to the world as Jihad Jane. 
However, what is less well-known to the world was she received 
that moniker because it was the name that she employed on-line, 
where she became a committed jihadist.
    She enthusiastically posted and commented on YouTube videos 
of supporting al-Qaeda and their allies, but her enthusiasm for 
jihad went beyond watching videos and offered moral support as 
well. She made contacts on-line with other jihadis, solicited 
funding, and orchestrated an actual terror plot.
    Her case is a shocking example of how easy it can be to 
find jihadi content on-line and make operational connections 
with others who speak aspirationally about violent acts of 
terror against the homeland.
    The Jihad Jane case is not the only one. Only a few weeks 
ago, Jose Pimentel was arrested for preparing bombs to use in 
attacking targets in New York City. Before his arrest, Mr. 
Pimentel had been active on-line. He ran a blog, held two 
YouTube accounts, and operated a Facebook profile, all 
dedicated to jihadi propaganda.
    In a case that illustrates terrorist recruitment in the 
homeland via social networking, in December 2009 a group of 
five men in Washington, DC were arrested in Pakistan for 
attempting to join militants fighting along the border with 
Afghanistan. Later to become known as the Virginia Five, they 
were reportedly contacted by a Taliban recruiter through 
YouTube after one of the members of the group praised an on-
line video showing attacks on American troops.
    These examples highlight the emerging challenge posed by 
terrorists engaging on-line. The internet was designed to ease 
communication, and it must stay that way. However, we cannot 
ignore the reality that we have been unable to effectively 
prevent jihadi videos and messages from being spread on popular 
social media websites like YouTube and Facebook.
    I have called this hearing today to learn more about what 
has been done and what must be advised as we move forward.
    Another central issue I would like to learn more about is 
whether or not social media websites can become useful sources 
of intelligence in our fight against terrorism. On-line 
movements are traceable, nowhere more often so than on social 
networks which are designed to make connections among people 
much easier.
    I believe the intelligence and law enforcement communities 
can use this open information to combat terrorism and other 
crimes. However, it is essential that civil liberties and 
individual privacy be appropriately protected. I am encouraged 
by recent remarks made by Under Secretary for the Office of 
Intelligence and Analysis, Caryn Wagner, where she indicated 
that the Department of Homeland Security will be working to 
enhance its ability to monitor social media for threats against 
the homeland, and I look forward to learning how that may be 
done as she develops these procedures.
    With that, I look forward to hearing from today's 
witnesses, and I would now like to recognize the Ranking 
Member, the gentlelady from California, Ms. Speier.
    Ms. Speier. Mr. Chairman, thank you for holding this 
hearing and for your continued cooperation. I would also like 
to thank the witnesses for being here today and look forward to 
gaining some insights from you on how terrorists use our social 
media and how the power of social media can be used for both 
countering the narrative used by terrorists and effective 
information sharing of potential terrorist activity.
    Social media is the No. 1 activity on the world wide web, 
we know that, accounting for over 22 percent of all time spent 
on-line in the United States. For instance, Twitter averages 
about 200 million tweets per day, Facebook boasts about 800 
million active users throughout the world. Social media 
spreading messages to many users at one time is commonplace and 
their power has proven to be remarkable.
    When it comes to looking at the power of social media, we 
must look to the Arab Spring. As the Arab Spring ensued, social 
media spread messages to which the world subscribed, followed, 
tweeted and retweeted. For instance, the week before Egyptian 
President Hosni Mubarak's resignation, the total rate of tweets 
about political change in Egypt ballooned ten-fold. The top 23 
videos featuring protests and political commentary had nearly 
5\1/2\ million views. More than 75 percent of people that 
clicked on embedded Twitter links about the Arab Spring were 
from outside the Arab world.
    Social media become a megaphone that disseminated 
information and excitement about the uprisings to our outside 
world. The users of social media in the Middle East caused the 
world to take notice and to witness the revolution. Social 
media enabled these revolutionaries, change agents in their own 
right, to spread their messages beyond national borders to all 
corners of the world.
    Knowing the power of social media and its reach, it is 
quite natural that terrorists groups themselves would try to 
use social media to their advantage. For example, we know that 
former al-Qaeda in the Arabian Peninsula leader, Anwar al-
Awlaki, was known to some as the bin Laden of the internet. The 
late al-Awlaki used various social media such as Facebook, 
blogs, and YouTube videos to try and recruit and develop a 
cadre of terrorists in the United States.
    We know that al-Awlaki used on-line videos to praise those 
who not only perpetrated violent acts against people in the 
United States such as Major Nidal Hasan but also those who 
waged unsuccessful attacks such as the attempted Christmas Day 
Bomber. We also know that the attempted Times Square Bomber, 
Faisal Shahzad, was in contact with al-Awlaki via e-mail.
    What we do not know is how many people have actually been 
radicalized by viewing blogs, news feeds, and tweets by al-
Awlaki and others like him that espouse violent ideology. At 
what point do those influenced by terrorist ideology over the 
internet become real, live terrorists?
    Terrorists acts by design are intended to create fear or 
draw attention to their message regardless of whether the 
message is hatred for a particular group of people, a 
government, or a policy. Terrorists, through their actions, 
also have the agenda of causing economic disruption. Just by 
their menacing and prompting the government to take action and 
extend its financing can sometimes be a win for them.
    Hence, who is the real audience for terrorists on the 
internet? Is the government who terrorists may feel will spend 
its money and energy chasing when it finds potential leads, or 
is it for those that terrorists really feel may be led to 
espouse their ideology and eventually act upon it?
    Since we understand the power of social media as 
effectively used in the Middle East, what can we do to empower 
users of social media to counter the message terrorists spread? 
I am eager to learn today how people can be encouraged to use 
social media to spread the message that America is not a Nation 
that is fearful, but a Nation that is abundant with ideas, 
expression, and innovation.
    We know that a vigilant public can provide essential 
information to law enforcement that thwarts terrorist activity. 
For example the attempted Times Square bombing by Faisal 
Shahzad was prevented by law enforcement who received tips of 
suspicious activity in the area. Are there ways that social 
media providers can partner with the government to mitigate 
terrorist activities on their sites without the fear of strict 
regulation and censorship? How do we encourage the public to 
utilize these platforms to act as our eyes and ears?
    Since social media are such valuable information-sharing 
tools, is it possible for law enforcement to use social media 
to share trends and concerns that may threaten our communities, 
educate the public on how to report suspicious activities, and 
develop new partnerships with the community?
    Is it possible for social media to be used on levels that 
would actually affect the scope of our intelligence gathering? 
For example, a few months ago, the Afghan Taliban exchanged 
tweets with NATO in Kabul during an attack. Can social media 
present unique opportunities for counter-messaging and direct 
engagement with terror groups that our Government is currently 
overlooking?
    I am eager to hear from the witnesses how social media can 
be used to counter the messages espoused by terrorists. I am 
looking forward to hearing how social media can be used to 
share information, how users can be assured that by sharing 
information they will not give up their Constitutional rights. 
With social media being such powerful tools, what steps are 
companies, users, and law enforcement taking to effectively 
thwart terrorists activities? What more should we be doing?
    I have many more questions, Mr. Chairman, but with that I 
will yield back.
    Mr. Meehan. Thank you, Ranking Member Speier. Other Members 
of the committee are reminded that opening statements may be 
submitted for the record.
    So we are pleased to have a distinguished panel of 
witnesses before us today on this very, very important topic. I 
would like to first introduce William McCants. He is an analyst 
at the Center for Naval Analysis where he focuses on al-Qaeda, 
terrorism, and Middle Eastern policies. He is also an adjunct 
faculty at Johns Hopkins Krieger School. From 2009 to 2011, Mr. 
McCants served as the senior adviser for countering violent 
extremism in the Office of the Coordinator for Counterterrorism 
at the U.S. State Department. I will bet you didn't get that 
title on one card.
    Prior to that he was the program manager of the Minerva 
Initiative in OSD policy, an analyst at the Institute for 
Defense Analysis and a fellow with West Point's Combating 
Terrorism Center. McCants is the founder of Jihadica.com, a 
group blog that explains the global jihadi movement. The blog 
has been featured on the cover of the New York Times and rated 
by Technorati as one of the top 100 blogs on global politics. 
Wired Magazine recently described it as the gold standard in 
militant studies. McCants is an editor of the Militant Ideology 
Atlas and author of a forthcoming foreign affairs article on 
al-Qaeda. This fall Princeton University Press is publishing 
McCants' book, Founding Gods, Inventing Nations.
    I next turn to Mr. Andrew Weisburd, and he has been engaged 
in counterterrorism and the collection, analysis, and 
dissemination of intelligence since 2002, primarily focused on 
the use of the internet by al-Qaeda and other Islamist 
extremist organizations and movements. He has been a provider 
of expert services to a variety of organizations since 2003 and 
has engaged in research for organizations such as NATO and the 
United States Department of Justice.
    He is a long-time contract instructor in the practitioner 
education program at the Combating Terrorism Center at West 
Point and regularly provides training and briefings to the FBI 
and CIA. He has a BS in information systems from Southern 
Illinois and an MA in criminology, and he has written various 
books and included a chapter for the FBI Counterterrorism 
Division textbook on comparing jihadi and street gang videos on 
YouTube.
    Last, Mr. Brian Michael Jenkins is a senior adviser to the 
President of the RAND Corporation and is the author of Will 
Terrorists Go Nuclear? and several Rand monographs on 
terrorism-related topics. He formerly served as chair of the 
Political Science Department at RAND. In anticipation of the 
10-year anniversary of 9/11, Jenkins spearheaded the RAND 
effort to take stock of America's policy reactions and give 
thoughtful consideration of the future strategy. That effort is 
presented in The Long Shadow of 
9/11: America's Response to Terrorism. I thank you for 
forwarding a copy of that and I found it very--I recommend it 
as reading to anybody who is considering the analysis of what 
has happened over the last course of the decade from a variety 
of different topics. Very, very provoking. Commissioned in the 
infantry, Jenkins became a paratrooper and a captain in the 
Green Berets. He is a decorated combat veteran, having served 
in the 7th Special Forces Group in the Dominican Republic and 
with the 5th Special Forces Group in Vietnam. He returned to 
Vietnam as a member of the Long Range Planning Task Group and 
received the Department of the Army's highest award for 
service.
    In 1996, President Clinton appointed Jenkins to the White 
House Commission on Aviation Safety and Security. He is a 
research associate at Mineta Transportation Institute, where he 
directs continuing research on protecting surface 
transportation from terrorist attacks.
    So I thank all of our panelists. I know this is a complex 
topic, and there is a lot to be said, so I will ask if you will 
do your best to summarize your written submitted testimony and 
focus on those issues which you think are the most important 
things for us to hear in your written testimony and appreciate 
as well that we will have time for questions. So thank you, Mr. 
McCants, and I now recognize you for your testimony for 5 
minutes.

  STATEMENT OF WILLIAM F. MC CANTS, ANALYST, CENTER FOR NAVAL 
                            ANALYSIS

    Mr. McCants. Thank you, Chairman Meehan, Ranking Member 
Speier, Members of the committee. I appreciate the opportunity 
to testify today on the ways al-Qaeda supporters use social 
media. Most of the research on the subject is confined to 
discussion forums, an older form of social media that allows 
users to comment on topics that interest the group.
    Al-Qaeda forum users are usually anonymous. The links 
between them are unknown, and the administrators heavily 
moderate the discussions. There are only a handful of these 
fora and the most prominent of them only numbers 50,000 
members, many of whom have multiple accounts or, like Aaron and 
I, are researchers, passively watching. Participating on the 
forums may harden the views of al-Qaeda supporters and it may 
push them to take action, but no one is being radicalized on 
them. They are already members of the radical choir singing to 
one another.
    If the internet does play a role in radicalization, it is 
happening elsewhere. Sometimes recruiters fish for susceptible 
youth on mainstream websites, sometimes youth find the content 
themselves on sites like YouTube, led to it out of curiosity or 
following the trail of their own conviction. They then share 
what they find with their acquaintances on social networking 
sites like Facebook. Thankfully, the vast majority of youth who 
watch and read al-Qaeda propaganda are either unaffected or 
choose not to act.
    As tested recently by one anonymous on-line recruiter he 
posited that if you post al-Qaeda propaganda to all of the 
mainstream websites, only .00001 percent of the people who 
viewed it would go out to fight for al-Qaeda and even fewer 
would carry out suicide operations. By his reasoning that is 
10,000 people out of a population of 1 billion Muslims. Those 
numbers might be a bit off, but I don't think by much. We are 
talking about a relatively small number of people.
    Since most people are already fireproofed against al-
Qaeda's call to action, the U.S. Government should focus on 
putting out the fire of criminal activity rather than removing 
the incendiary material. Follow the smoke trail of al-Qaeda 
propaganda, looking for those who celebrate its content and 
distribute it intensively for the purpose of recruitment. 
Chances are that some of them will do something criminal.
    As you might surmise from my testimony, I do not put much 
stock in closing on-line user accounts held by people that do 
not violate our laws. I also do not put much stock in 
intervening with well-meaning outreach programs or removing 
propaganda. There are too many downsides to these approaches. 
They are also unnecessary. The FBI and local law enforcement in 
the United States have done a fair job in finding al-Qaeda 
supporters on-line and arresting them before they hurt anyone. 
They have gotten very good at following the smoke trails and 
putting out the fire of criminal activity.
    However, as social networking on-line becomes more private 
and confined to one's acquaintances, this will be increasingly 
difficult to do. For legal and technological reasons, it is 
harder to get access to information on corporate-owned sites 
like Facebook compared to al-Qaeda-owned forums. Working 
through these issues is outside of my area of expertise, but I 
would close by again emphasizing that the first priority should 
be monitoring and not taking down content. Focus more on 
following the smoke and looking for the fires of criminal 
activity and focus less on removing incendiary materials since 
most people are already fireproof.
    Thank you for your time.
    [The statement of Mr. McCants follows:]
                Prepared Statement of William F. McCants
    Thank you, Chairman Meehan, Ranking Member Speier, and Members of 
the committee. I appreciate the opportunity to testify today on the 
ways al-Qaeda supporters use social media.
    Our understanding of how the internet creates al-Qaeda supporters 
is limited by where we look. With few exceptions, most of the research 
on the subject is confined to discussion forums, an older form of 
social media that allows users to comment on topics that interest the 
group. Al-Qaeda forum users are usually anonymous, the links between 
them are unknown, and the administrators heavily moderate the 
discussions. Everyone on these forums is either a stalwart supporter of 
al-Qaeda or analysts who passively watch. There are just a handful of 
these forums, and the most prominent of them only numbers 50,000 
members, many of whom have multiple accounts or are researchers like 
me. Participating on the forums may harden the views of al-Qaeda 
supporters and push them into taking action but no one is being 
radicalized. They are members of the choir singing to one another. For 
those of us watching, we see only the finished radicalized product and 
not the process that produced it.
    So where and how are al-Qaeda supporters initially radicalized on-
line? The where question is easier to answer than the how: Sometimes 
recruiters fish for susceptible youth on mainstream websites. Sometimes 
youth find the content by themselves on sites like YouTube, led to it 
out of curiosity or by following the trail of their convictions. They 
then share what they find with their acquaintances on social networking 
sites like Facebook. In the so-called ``Five Guys'' case, there is a 
mix of both trends. Young men in the D.C. area watched al-Qaeda videos 
on YouTube and shared them with one another. A Taliban recruiter 
contacted them through YouTube and facilitated their travel to 
Pakistan.
    As the Five Guys case suggests, al-Qaeda supporters use a mix of 
social media to watch and spread the organization's propaganda on-line. 
Some of these sites, like Facebook, are a goldmine for analysts because 
they show the users' connections. But they can also be more difficult 
to penetrate compared to the anonymous discussion forums. A friend 
request from a stranger is unlikely to be answered in the affirmative. 
Because these more closed social networking sites are effective at 
transmitting propaganda, we may yet see the day when an al-Qaeda video 
is solely distributed peer-to-peer without announcement on the 
anonymous discussion forums, thus eluding the media and researchers but 
nurturing the radicalized.
    Thankfully, the vast majority of youth who watch and read al-Qaeda 
propaganda are either unaffected or choose not to act, as attested 
recently by one anonymous on-line recruiter. He posited that if you 
post al-Qaeda propaganda to all of the mainstream websites, only 10% of 
the people will likely look at it. Of those, only 10% will like what 
they see. Of those, only 10% will embrace the idea of jihad. Of those, 
only 10% will propagandize for it. Of those, only 10% will go out to 
fight in a jihad. And of those, only 10% will seek martyrdom. By his 
reasoning, 10,000 people out of a population of one billion Muslims, or 
0.00001%, would go out to fight for al-Qaeda and even fewer would carry 
out a suicide operation. Those numbers might be a bit off but not by 
much. We are talking about a relatively small number of people.
    Because the number of people is so small, it is difficult to say 
why some become active supporters of al-Qaeda and others do not. What 
we can say is that the vast majority of people who watch and read al-
Qaeda propaganda will never act violently because of it. Put 
metaphorically, the material may be incendiary but nearly everyone is 
fireproof. Since that is the case, it is better to spend our resources 
putting out the fires and issuing warnings about the dangers of fire 
rather than trying to fireproof everyone or remove incendiary material.
    Extending the fire metaphor a bit, how do we know where the flames 
are? We look for smoke. In this case, the smoke is the distribution and 
celebration of al-Qaeda propaganda. People who celebrate al-Qaeda 
propaganda on-line and who distribute large amounts of it on mainstream 
websites for the purposes of recruitment should be watched. Chances are 
that a few of them will decide to do something stupid, like Zachary 
Chesser, a recent Muslim convert from the D.C. area who was active in 
on-line recruitment and was arrested while trying to go fight for al-
Shabaab in Somalia.
    As you might surmise from my testimony, I do not put much stock in 
closing on-line user accounts that do not violate our laws. I also do 
not put much stock in intervening with well-meaning outreach programs 
or removing propaganda. There are too many downsides to these 
approaches. They are also unnecessary. The FBI and local law 
enforcement in the United States have done an excellent job in finding 
al-Qaeda supporters on-line and arresting them before they hurt anyone. 
They have gotten very good at following the smoke trails and putting 
out fires.
    I would be willing to revise my approach to on-line radicalization 
if the data warranted it. But there is little research to go on, which 
is striking given how data-rich the internet is. In hard numbers, how 
widely distributed was Zawahiri's last message? Did it resonate more in 
one U.S. city than another? Who were its main distributors on Facebook 
and YouTube? How are they connected with one another? This sort of 
baseline quantitative research barely exists at the moment. Analysts 
are either focused on studying the content of the propaganda or 
absorbed in stopping the next attack by known militants.
    Until this research is done and demonstrates conclusively that al-
Qaeda's on-line propaganda is persuading large numbers of people to act 
on its behalf, I believe the conservative approach I outlined is best, 
particularly since we have not seen a great increase in foiled plots 
and arrests. The U.S. Government should focus on watching those people 
who are actively distributing and celebrating al-Qaeda propaganda on-
line, looking for criminal behavior or attempts to connect with active 
militants. Conversely, the U.S. Government should put much less 
emphasis on stopping people's exposure to al-Qaeda propaganda since it 
is not creating many supporters and it is difficult to stop its 
distribution. In other words, focus less on fireproofing and removing 
incendiary material and focus more on following the smoke and putting 
out fires.
    Thank you for your time.

    Mr. Meehan. Thank you, Mr. McCants.
    I now turn to Mr. Weisburd for your testimony.

   STATEMENT OF ANDREW AARON WEISBURD, DIRECTOR, SOCIETY FOR 
                       INTERNET RESEARCH

    Mr. Weisburd. Good afternoon, Chairman Meehan, Ranking 
Member Speier, Members of the committee. Thank you also for 
this opportunity to appear here today to discuss the threat 
posed by jihadist use of social media.
    The next home-grown violent extremist who either attempts a 
terrorist attack or who is arrested before they can do so will 
be someone I already know something about. Assuming they have a 
YouTube account, they will likely be within 2 degrees of 
separation of someone who has similarly either attempted a 
terrorist attack or has been arrested on terrorism charges. The 
following examples help to illustrate this point.
    Taimour al-Abdaly launched an attack in Stockholm, Sweden. 
Mr. al-Abdaly had connections to Arid Uka. Arid Uka opened fire 
on a bus full of U.S. service personnel at the airport in 
Frankfort, Germany killing two. Arid Uka was connected on-line 
through YouTube to Abu Khalid Abdul-Latif. Mr. Abdul-Latif is 
awaiting trial. He is accused of plotting with friends to 
attack a U.S. military facility in Seattle, Washington. Mr. 
Abdul-Latif had friends in common with Jubair Ahmad. Mr. Ahmad 
of Woodbridge, Virginia pled guilty to one count of material 
support for terrorism at the end of last week. He had made a 
video under the direction of Lashkar-e-Taiba, and he uploaded 
that video for Lashkar-e-Taiba to YouTube.
    Mr. Ahmad had connections to one Mr. Elkhadir Atrash. Mr. 
Atrash was arrested in northern Israel. He was arrested on 
charges of organizing a home-grown al-Qaeda cell based there. 
Not only were all these people connected to each other, but 
they were also connected to networks, known networks of 
extremists and/or terrorist organizations.
    Turning to terrorist media itself and specifically the 
videos, the single most common element to these videos is 
violence. Half of all terrorist videos contain explicit deadly 
violence. The effects of exposure to this violence are 
profoundly negative. The deciding factor, however, in 
determining or--the deciding factor in whether that exposure 
contributes to future violent behavior is context. The context 
in which these extremists experience this violence is not 
merely supportive or permissive of violence, it presents that 
violence as absolutely essential. It is precisely that kind of 
context that Inspire magazine sought to provide. For the home-
grown violent extremists, however, who were targeted or reached 
out to by Anwar al-Awlaki and Samir Kahn of Inspire magazine, 
each release of Inspire magazine was more than just the 
content. Each new edition of Inspire magazine was celebrated as 
though the release of the magazine itself was an event, a 
terrorist attack. While we will be dealing with the content of 
Inspire magazine for some time to come, this string of 
victories is over. Neither Anwar al-Awlaki nor Samir Khan are 
easily replaced.
    Regarding the videos again and regarding the issue of 
countermeasures of what we might do about them, I don't believe 
that Google, operator of YouTube, has an interest in promoting 
violent extremism, and they have already made some effort to 
address this issue. I will note, however, that authenticity is 
of great importance to extremists. Each terrorist media product 
bears a trademark of the associated organization. These 
trademarks of terrorism are signs of authenticity and are 
easily recognized, not only by extremists but also by service 
providers. I would suggest the objective of not driving all 
terrorist media off-line, but to marginalize it and to deprive 
it of these clear indications of authenticity.
    Chairman Meehan, Ranking Member Speier, I would like to 
conclude by thanking you for your service, for your leadership 
on addressing this issue, and I would be happy to answer any 
questions you may have.
    [The statement of Mr. Weisburd follows:]
              Prepared Statement of Andrew Aaron Weisburd
                            06 December 2011
    Good afternoon, Chairman Meehan, Ranking Member Speier, and Members 
of the committee. Thank you for the opportunity to appear before the 
committee today to discuss the nature and threat posed by Jihadist use 
of social media.
                              introduction
    I have been investigating terrorist use of the internet for roughly 
10 years.\1\ For the past 2 years, I have analyzed the YouTube accounts 
of al-Qaeda supporters who have attempted a terrorist attack, or have 
been arrested on terrorism charges. What I find most alarming is that 
each time I look at someone new, I find I already have data on them as 
a result of their being part of the same global community of 
extremists.
---------------------------------------------------------------------------
    \1\ A significant portion of that work finds expression on the 
internet Haganah blog (internet-haganah.com), the site of SoFIR 
(sofir.org), and now the internet Haganah Forum (forum.internet-
haganah.com) and on Twitter (@webradius).
---------------------------------------------------------------------------
                       two degrees of separation
    Taimour al-Abdaly launched a complex attack on Stockholm, Sweden. 
He was killed when one of his bombs detonated prematurely.\2\ He used 
Facebook primarily to keep in touch with family, with one exception. 
That exception was a known associate of American al-Qaeda operative 
Samir Khan.\3\ Al-Abdaly was also an avid consumer of al-Qaeda and 
related extremist videos, as well as of nasheeds--a cappella songs that 
celebrate violent jihad and death by martyrdom. However, he made little 
use of YouTube for social networking, a fact that may reflect some 
amount of training in operational security.\4\
---------------------------------------------------------------------------
    \2\ http://internet-haganah.com/harchives/007103.html.
    \3\ http://internet-haganah.com/harchives/007132.html.
    \4\ http://internet-haganah.com/harchives/007107.html.
---------------------------------------------------------------------------
    Taimour al-Abdaly was connected to Arid Uka,\5\ a young man who 
opened fire on a busload of U.S. military personnel at the airport in 
Frankfurt, Germany, killing two. Particularly in the case of homegrown 
violent extremists, terrorism seems to be as much an expression of an 
identity as of ideology, and the internet provides an ample supply of 
imagery, music, and text from which the aspiring terrorist can assemble 
their identity. In the case of al-Abdaly and Uka, the common element 
was the nasheed.\6\ They shared the same supplier--an as yet 
unidentified individual, most likely also in Europe, who was well-known 
to other extremists on account of his work as a curator of extremist 
songs. The choice of the word supplier is deliberate, and there is a 
similarity to be seen with drug dealing. Such suppliers link many of 
the extremists I have studied. They are people who have acquired a 
reputation on-line of having an ample supply of ``the good stuff,'' 
generally videos, audio files (e.g. nasheeds), and literature, all of 
an extremist nature.
---------------------------------------------------------------------------
    \5\ http://internet-haganah.com/harchives/007251.html.
    \6\ http://internet-haganah.com/harchives/007194.html.
---------------------------------------------------------------------------
    Arid Uka was connected to Abu Khalid Abdul Latif, who is alleged to 
have plotted with friends to attack a military facility in Seattle, 
Washington.\7\ They were linked through multiple individuals on YouTube 
who all associated with a highly radicalized Salafist organization 
operating in Cologne and Frankfurt, Germany.\8\ The organization, Die 
Wahre Religion, is led by Ibrahim Abou Nagie, who is currently under 
indictment for inciting violence and calling for the destruction of 
other religions.\9\ Abdul Latif represents a not uncommon type of 
extremist activism on YouTube. His channel served as a virtual pulpit 
from which he preached regularly in video sermons that almost no one 
came to hear. As he began to move forward with his plot, his comments 
on other YouTube channels became increasingly shrill,\10\ yet he 
stopped short of saying anything that might have warranted opening an 
investigation. While his words may not have clearly indicated terrorist 
intent, Abdul Latif was linked via YouTube to a well-known network of 
homegrown violent extremists here in the United States.\11\
---------------------------------------------------------------------------
    \7\ USA v Abdul Latif & Mujahidh, complaint available at http://
s88179113.onlinehome.us/2011-06-25/USA_v_Abdul-Latif_et-
al%20Complaint.pdf.
    \8\ http://forum.internet-haganah.com/showthread.php?146.
    \9\ http://www.taz.de/Anklage-gegen-Hassprediger/!77963/.
    \10\ http://internet-haganah.com/harchives/007379.html.
    \11\ Ibid.
---------------------------------------------------------------------------
    Abdul-Latif had friends in common with Jubair Ahmad of Woodbridge, 
Virginia, who has been charged with being a member of Lashkar-e-Taiba, 
and making videos for that designated terrorist organization.\12\ The 
common link was once again individuals associated with Die Wahre 
Religion.\13\ Ahmad's alleged membership and direct communications with 
a bona fide terrorist organization is not something one often sees in 
open sources of intelligence. His work as a curator of Lashkar-e-Taiba 
videos appears to be what led to many extremists to link to him (and 
likely also brought him to the attention of the FBI).
---------------------------------------------------------------------------
    \12\ http://www.fbi.gov/washingtondc/press-releases/2011/
woodbridge-man-charged-with-providing-material-support-to-terrorist-
organization.
    \13\ http://internet-haganah.com/harchives/007423.html.
---------------------------------------------------------------------------
    Jubair Ahmad had connections to Elkhadir Atrash, who was arrested 
on charges of organizing a homegrown al-Qaeda cell based in northern 
Israel.\14\ Like Ahmad, Atrash was a supplier, curating YouTube videos 
of two extremist clerics, Abu Nur al-Maqdisi of Gaza, and Abu Muhammad 
al-Maqdisi of Jordan.\15\ In addition to Jubair Ahmad, Atrash was 
connected to a broad range of homegrown violent extremists in the 
United States, throughout Europe, and in Australia.\16\ There is no 
evidence that extremists must progress through on-line activism to 
involvement in real-world terrorist activity. Generally it seems there 
is interplay between the two realms. Nevertheless, Atrash is 
representative of extremists who engage in on-line activism while 
toiling away at the more laborious task of assembling a cell that can 
engage in terrorism, or making the connections necessary to travel to 
some field of jihad.
---------------------------------------------------------------------------
    \14\ http://forum.internet-haganah.com/showthread.php?150.
    \15\ Ibid.
    \16\ http://internet-haganah.com/harchives/007426.html.
---------------------------------------------------------------------------
    These al-Qaeda supporters--part of a global network whose number I 
estimate at a few thousand--were all connected within two or three 
degrees of each other on YouTube. The connections between them should 
be assumed to be weak, rather than strong, but that is not to say such 
weak ties are unimportant.\17\ While a terrorist cell will be composed 
of strongly-tied individuals, it will be from within a weakly-tied 
community that they emerge. Weak ties are the paths along which 
information flows, including militant ideology, and intelligence 
regarding both potential targets for terrorism as well as 
counterterrorism activities. Conversely, the weakness of strong ties is 
that information no longer flows effectively. In the life-cycle of 
terrorist movements and organizations, one sees again and a again a 
particular process: Successful counterterrorism activity, generally in 
the form of arrests and prosecutions, causes communities of extremists 
to fracture. Weak ties break, leaving the strongly tied units with 
fewer sources of support and intelligence. This makes them more 
vulnerable to counter-terrorism, and the process repeats itself.\18\
---------------------------------------------------------------------------
    \17\ For a discussion of weak and strong ties, see ``The Strength 
of Weak Ties'' by Mark S. Granovetter, The American Journal of 
Sociology, Vol. 78, No. 6 (May, 1973).
    \18\ The history of the decline and fall of the German R.A.F. is a 
classic example of these processes at work.
---------------------------------------------------------------------------
       media, computer-mediated communications, and violence \19\
---------------------------------------------------------------------------
    \19\ For a thorough review of these issues, see Jihad, Crime, and 
the Internet by Erez, Weimann, and Weisburd, NIJ2006-IJ-CX-0038 (in 
press), pp. 21-30.
---------------------------------------------------------------------------
    Terrorism--violence for political aims--requires a steady output of 
media for the movement to remain relevant, to maintain morale, and to 
recruit new members. For the terrorist organization or movement, the 
low cost and ease of access of the internet make it an ideal channel 
for the distribution of terrorist media. Terrorism is also a social 
phenomenon. Individuals may act alone, but in almost all cases, the 
terrorist is a product of a community of extremists. The genuine lone 
wolf is extremely rare. Because of their political and social needs, 
social media sites are very attractive to violent extremists. But this 
fails to explain how the combination of people, media, and technology 
contributes to the problem of homegrown violent extremism.
    Computers affect how we experience media and how we interact with 
others. Extremists are as susceptible to these effects as we are. The 
on-line environment is immersive. We feel we are in a place, often 
called cyberspace. When we are on a social media site, we feel that we 
are virtually together with our friends, family, and comrades in arms. 
We feel we are present in the videos we watch. On-line interaction 
brings people closer, faster. On-line relationships get off to a strong 
start, and then move off-line if possible. In the case of two people 
seeking a soulmate, the result may be a happy union. In the case of 
aspiring terrorists, the result may be less positive. On-line social 
networks tend to mirror off-line social networks. People--extremists 
included--use social media to keep in touch with people they already 
know. An individual's ability to get involved in terrorism is directly 
related to who they know, and this is precisely what social media sites 
reveal to us. The benefits of this to law enforcement are enormous.
    In terrorist media, the single most common element is violence.\20\ 
Half of all terrorist videos contain explicit, deadly violence. The 
effects of exposure to such violence are profoundly negative. The 
deciding factor in whether that exposure contributes to future violent 
behavior is context. The context in which extremists experience 
terrorist media is not merely supportive of violence--it presents 
violence as absolutely essential.
---------------------------------------------------------------------------
    \20\ Ibid., and Comparison of Visual Motifs in Jihadi and Cholo 
Videos on YouTube by A. Aaron Weisburd (2009), in Studies in Conflict 
and Terrorism, 32:12 1066-1074.
---------------------------------------------------------------------------
           samir khan, anwar al-awlaki, and inspire magazine
    Each new edition of Inspire was celebrated as a victory, as an 
attack in itself. In that sense, the deaths of al-Awlaki and Khan can 
only help in the battle against homegrown violent extremists. There 
will be no more such events to celebrate. Neither of them is easily 
replaced, and in the event the magazine is re-launched, it is worth 
noting that the work involved in producing the magazine likely 
contributed to the successful targeting of al-Awlaki. Finally, 
information does not preserve itself in perpetuity on the internet. If 
Inspire magazine remains available for download, it will only be 
because activists continue to upload it, and every upload of Inspire 
magazine is an event that will leave a trail, and is an act that--in 
light of the content of the magazine--can likely be investigated and 
prosecuted.
                            countermeasures
    The U.S. intelligence community is already making very effective 
use of the internet to identify and investigate extremists. Some 
additional actions can contribute to undermining the processes that 
enable extremists to engage in violence.
    Producing and distributing media for Foreign Terrorist 
Organizations constitutes material support for terrorism. I would argue 
that a service provider who knowingly assists in the distribution of 
terrorist media is also culpable. While it is in no one's interests to 
prosecute internet service providers, they must be made to realize that 
they can neither turn a blind eye to the use of their services by 
terrorist organizations, nor can they continue to put the onus of 
identifying and removing terrorist media on private citizens. I don't 
believe that Google, operator of YouTube, has an interest in promoting 
violent extremism, and they have already made some effort to address 
this issue, but they can and should do more.
    Branding in terrorist media is a sign of authenticity, and 
terrorist media is readily identifiable as such due to the presence of 
trademarks known to be associated with particular organizations. The 
objective should be not to drive all terrorist media off-line, but to 
drive it to the margins and deprive it of the power of branding, as 
well as to leave homegrown extremists unable to verify the authenticity 
of any given product.
                               conclusion
    Chairman Meehan and Ranking Member Speier, I would like to conclude 
by thanking you for your service and for your leadership in addressing 
this issue.
    I would be happy to answer any questions that you may have.

    Mr. Meehan. Thank you, Mr. Weisburd. I now turn to Mr. 
Jenkins for your testimony.

   STATEMENT OF BRIAN MICHAEL JENKINS, SENIOR ADVISOR TO THE 
                  PRESIDENT, RAND CORPORATION

    Mr. Jenkins. Thank you, Mr. Chairman and Ranking Member 
Speier, Members of the committee, for inviting me to talk to 
you about this important subject.
    Although all terrorist groups use the internet, al-Qaeda is 
the first to fully exploit the internet and the social media. 
This reflects some unique characteristics of al-Qaeda itself. 
It regards itself as a global movement that therefore requires 
a global network of communications to support it. It sees its 
mission as not simply one of creating terror but one of 
awakening the Muslim community. Its leaders regard 
communications as 90 percent of their struggle and therefore, 
despite the security risks, these leaders communicate regularly 
with video and audio messages.
    These are distributed on the official websites, and then 
they are redistributed in a vast number of additional websites, 
but beneath this there is a tier of forums that allow for 
direct participation by on-line jihadists so they can become 
part of the movement themselves.
    Al-Qaeda leans on these cybertactics out of necessity. U.S. 
counterterrorist operations plus unprecedented international 
cooperation among the intelligence services and law enforcement 
organizations of the world have degraded al-Qaeda's operational 
capability.
    As a consequence, al-Qaeda today is more decentralized, 
more dependent on its field commands, its affiliates, its 
allies and above all on its ability to inspire home-grown 
terrorists. In this connection, al-Qaeda has embraced 
individual jihadism and has emphasized do-it-yourself 
terrorism. That is a fundamental shift in strategy.
    Many would-be jihadists begin their journey on the internet 
seeking solutions to their personal crises, validation of their 
anger, the thrill of clandestine activity. Of these, a few move 
beyond the internet to seek terrorist training abroad or to 
plot terrorist attacks here, but overall the response in 
America to al-Qaeda's intense marketing campaign thus far has 
not amounted to very much.
    Indeed, between 9/11 and the end of 2010, a total of 176 
persons, Americans, were identified as jihadists; that is, 
accused of providing material support to one of the jihadist 
groups or plotting terrorists attacks. In fact, despite years 
of on-line jihadist exhortation and instruction, the level of 
terrorist violence in the United States since 9/11 has been far 
below the terrorist bombing campaigns of the pre-internet 
1970s.
    This suggests a failure of al-Qaeda's strategy. It 
indicates that not only are America's Muslims rejecting al-
Qaeda's ideology, not only is this a remarkable intelligence 
ascent, but there are some inherent weaknesses in this on-line 
strategy.
    Al-Qaeda has created a virtual army which has remained 
virtual. Although its strategy depends on individual 
initiative, it offers on-line participants the means of 
vicariously participating in the jihadist struggle without 
incurring personal risks. Indeed, the expression of 
convictions, of commitment, of threats and boasts becomes not a 
summons to arms but, in fact, a distraction from action in the 
real world, a kind of psychologically satisfying video game. 
Therefore we are not seeing the threat yet.
    What does this mean in terms of a response? As the two 
previous witnesses have indicated, this on-line discussion and 
these postings are a source of valuable intelligence. So rather 
than devoting vast resources to shutting down content and being 
dragged into a frustrating game of whack-a-mole--as we shut 
down sites, they open up new ones. Instead, we probably should 
devote our resources to facilitating intelligence collection 
and criminal investigations so that we can continue to achieve 
the successes that we have had thus far in identifying these 
individuals, uncovering these plots and apprehending these 
individuals.
    [The statement of Mr. Jenkins follows:]
            Prepared Statement of Brian Michael Jenkins \1\
---------------------------------------------------------------------------
    \1\ The opinions and conclusions expressed in this testimony are 
the author's alone and should not be interpreted as representing those 
of RAND or any of the sponsors of its research. This product is part of 
the RAND Corporation testimony series. RAND testimonies record 
testimony presented by RAND associates to Federal, State, or local 
legislative committees; Government-appointed commissions and panels; 
and private review and oversight bodies. The RAND Corporation is a non-
profit research organization providing objective analysis and effective 
solutions that address the challenges facing the public and private 
sectors around the world. RAND's publications do not necessarily 
reflect the opinions of its research clients and sponsors.
---------------------------------------------------------------------------
                            December 6, 2011
              is al-qaeda's internet strategy working? \2\
---------------------------------------------------------------------------
    \2\ This testimony is available for free download at http://
www.rand.org/pubs/testimonies/CT371.html.
---------------------------------------------------------------------------
    Terrorists use the internet to disseminate their ideology, appeal 
for support, spread fear and alarm among their foes, radicalize and 
recruit new members, provide instruction in tactics and weapons, gather 
intelligence about potential targets, clandestinely communicate, and 
support terrorist operations. The internet enables terrorist 
organizations to expand their reach, create virtual communities of 
like-minded extremists, and capture a larger universe of more-diverse 
talents and skills.
    While almost all terrorist organizations have websites, al-Qaeda is 
the first to fully exploit the internet. This reflects al-Qaeda's 
unique characteristics. It regards itself as a global movement and 
therefore depends on a global communications network to reach its 
perceived constituents. It sees its mission as not simply creating 
terror among its foes but awakening the Muslim community. Its leaders 
view communications as 90 percent of the struggle.
    Despite the risks imposed by intense manhunts, its leaders 
communicate regularly with video and audio messages, which are posted 
on its websites and disseminated on the internet. The number of 
websites devoted to the al-Qaeda-inspired movement has grown from a 
handful to reportedly thousands, although many of these are ephemeral. 
The number of English-language sites has also increased.
    Al-Qaeda's communications are a distributed effort. Its websites 
fall into three categories: At the top are the official sites that 
carry messages of the leaders. Recognized jihadist figures discuss 
issues of strategy on a second tier. The third tier comprises the many 
chat-rooms and independent websites where followers verbally and 
visually embellish the official communications, fantasize about 
ambitious operations, boast, threaten, and exhort each other to action.
    The quantity and easy accessibility of these sites have attracted a 
host of on-line jihadists, some of whom are technically savvy and 
contribute their skills to the overall communications effort.
    The jihadist enterprise has created on-line magazines such as 
Inspire and has recruited hometown communicators--native-born 
Americans, including al-Qaeda's Adam Gadahn and Anwar al-Awlaki, and al 
Shabaab's Omar Hammami--who understand American culture and can 
communicate in a way that will appeal to young American Muslims. Those 
seeking more direct dialogue can work through the internet to exchange 
messages with jihadist interlocutors.
    Al-Qaeda leans on cyber tactics as much out of necessity as for 
efficiency's sake. U.S. counterterrorist operations have pounded on al-
Qaeda's central command degrading its operational capabilities, while 
unprecedented cooperation among intelligence services and law 
enforcement organizations world-wide has made the jihadists' operating 
environment increasingly hostile. As a result, al-Qaeda today is more 
decentralized, more dependent on its field commands and affiliates and 
on its ability to inspire local volunteers to carry out attacks.
    Al-Qaeda has embraced individual jihad as opposed to 
organizationally-led jihad. Increasingly, it has emphasized do-it-
yourself terrorism. Those inspired by al-Qaeda's message are exhorted 
to do whatever they can wherever they are. This represents a 
fundamental shift in strategy. As part of this new strategy, al-Qaeda 
has recognized on-line jihadism as a contribution to the jihadist 
campaign. Despite some grumbling from jihadist ideologues about on-line 
jihadists not pushing back from their computer screens to carry out 
attacks, the threshold for jihad has been lowered. Action remains the 
ultimate goal but on-line warriors are not viewed as less-dedicated 
slackers.
    Many would-be jihadists begin their journey on the internet, 
seeking solutions to personal crises, validation, and reinforcement of 
their anger, the thrill of clandestine participation in an epic 
struggle. We have no way of counting the number of on-line jihadists. 
There may be thousands. Nor can we calibrate their commitment, which 
can range from merely curious visitor to the most determined fanatic.
    Of these, a few have moved beyond the internet to seek terrorist 
training abroad. Five young American students were arrested in Pakistan 
for attempting to join a terrorist group--they started their journey on 
YouTube. Some American jihadists like Zachary Chesser were inspired to 
set up their own jihadist website. Others like Samir Khan and Emerson 
Begolly exhorted others on-line to carry out terrorist attacks. Still 
others have found sufficient inspiration on the internet to plot or 
carry out terrorist attacks in the United States like Michael Finton, 
who plotted to blow up a Federal building in Illinois, or Major Nidal 
Hasan who killed 13 of his fellow soldiers and wounded 31 others at 
Fort Hood, Texas in 2009. Jose Pimentel apparently radicalized himself 
on the internet, urged others to carry out attacks, then migrated from 
encourager to would-be bomber, following instructions from al-Qaeda's 
Inspire magazine to build his explosive devices.
    Overall, however, the response in America to al-Qaeda's intense 
marketing campaign thus far, has not amounted to much. According to my 
own study of radicalization and recruitment to jihadist terrorism in 
the United States, between 9/11 and the end of 2010, a total of 176 
individuals were arrested or had self-identified as jihadists.\3\ This 
includes those arrested for providing material assistance to jihadist 
groups (Hamas and Hezbollah do not fall into this category), attempting 
to join jihadist fronts abroad, or plotting terrorist attacks. 
(Analysts may ague about the inclusion or exclusion of a few cases, but 
the totals remain small.)
---------------------------------------------------------------------------
    \3\ Brian Michael Jenkins, Stray Dogs and Virtual Armies: 
Radicalization and Recruitment in the United States Since 9/11, Santa 
Monica, CA: The RAND Corporation, 2011.
---------------------------------------------------------------------------
    The number of jihadists identified to date represents a tiny 
turnout among the approximately 3 million American Muslims--six out of 
100,000. There is no evidence of evidence of any vast jihadist 
underground. Most of the cases involve one person.
    There was an uptick in cases in 2009 and 2010, owing mainly to 
recruiting in the Somali community, but the number of homegrown 
terrorists declined between 2009 and 2010. The current year may show a 
further decline in the number.
    The determination of America's jihadists, with a few exceptions, 
appears to be low. Of the 32 terrorist plots discovered between 9/11 
and 2010, only 10 had what could be generously described as operational 
plans. And of these, six were FBI stings. Intentions are there--
provided with what they presume to be bombs, America's jihadists are 
ready to kill, but without external assistance, only four individuals 
attempted to carry out terrorist attacks on their own. Fortunately, 
most also lacked competence. Only three managed to attempt attacks, and 
only two, both lone gunmen, were able to inflict casualties. Suicide 
attacks are rarely contemplated.
    Despite years of on-line jihadist exhortation and instruction, the 
level of terrorist violence in the United States during the past decade 
is far below the terrorist bombing campaigns carried out by a variety 
of groups in the 1970s. The absence of jihadist terrorist activity 
since 9/11 reflects the success of domestic intelligence operations. It 
also indicates that America's Muslim community has rejected al-Qaeda's 
ideology. And it suggests a failure of al-Qaeda's internet strategy.
    It appears that while internet strategies aimed at creating at 
least weak ties among a large number of on-line participants offer 
opportunities to terrorist enterprises like al-Qaeda, such strategies 
also appear to have inherent weaknesses. They may create virtual 
armies, but these armies remain virtual. They rely on individual 
initiative to carry out terrorist actions, but they offer on-line 
participants the means to vicariously participate in the campaign and 
please God without incurring any personal risk. On-line jihadist forums 
may be providing an outlet that distracts jihadists from involvement in 
real-world operations.
    This may be a particular weakness of the jihadist movement, which 
recognizes fervent commitment evidenced by making disruptive threats, 
urging others to carry out attacks, creating terror, rather than 
limiting participation to physical terrorist attacks. If 90 percent of 
the struggle is communications, according to al-Qaeda, then on-line 
jihadism cannot be disparaged. For the virtual warrior, the opportunity 
to display one's convictions, demonstrate one's intentions and prowess 
through boasts, threats, and fantasy attacks on the internet counts as 
achievement. Al-Qaeda's own pronouncements tend to equate the 
declaration of intentions with their achievement. They include among 
their accomplishments what they intend to do. For many young men who 
grew up with the internet, there is no sharp line dividing the real 
world from the virtual world--the virtual world is the real world. On-
line jihadism, then, may be a distraction from the real thing--not a 
call to arms, but a psychologically rewarding videogame.
    Individual participation in an on-line group as opposed to joining 
a real group may further undermine action. While some individuals 
display the resolve to carry out attacks without the reinforcement of 
peers, the history of terrorist plots suggests that peer pressure plays 
an important role in driving a conspiracy toward action. On the 
internet, one can turn off the conspiracy at any time. On-line jihadism 
is readily accessible but it also offers easy off-ramps.
    On-line instruction in terrorist tactics and weapons is important 
for the jihadists, but extremists learned how to make bombs and carried 
on bombing campaigns long before the internet. The most serious 
jihadist plots in the United States have been those in which the 
conspirators had access to hands-on training abroad, which also appears 
to have cemented their radicalization.
    None of this is to be sanguine about the power of the internet for 
terrorists. As it attracts more technically savvy participants, on-line 
jihadism could evolve toward cyberterrorism aimed not merely at 
defacing government websites, but at physical sabotage of critical 
infrastructure.
    What steps might be taken? Advocates of absolute internet freedom 
sometimes declare the internet to be beyond any jurisdiction. But it is 
not self-evident that any attempt to limit on-line hate speech, 
threats, or incitements to violence will violate the Constitution or 
destroy innovation on the internet. European democracies impose limits 
on hate speech. Child pornography is outlawed--it makes no difference 
how many viewers there are. On-line gambling is controlled. The right 
to privacy, in my view, does not guarantee anonymity, but caution is in 
order.
    In addition to defining what content should be barred, any effort 
to limit internet use must realistically assess the ability to monitor 
and impose the restriction and must obtain international agreement in 
order to be effective. As Jonathan Kennedy and Gabriel Weimann point 
out in their study of terror on the internet, ``All efforts to prevent 
or minimize Al Qaeda's use of the internet have proved 
unsuccessful.''\4\ Even China, which has devoted immense resources to 
controlling social media networks with far fewer concerns about freedom 
of speech, has been unable to block the microblogs that flourish on the 
web. Faced with the shutdown of one site, jihadist communicators merely 
change names and move to another, dragging authorities into a 
frustrating game of Whack-A-Mole and depriving them of intelligence 
while they look for the new site. Is this, then, the best way to 
address the problem?
---------------------------------------------------------------------------
    \4\ Jonathan Kennedy and Gabriel Weimann, ``The Strength of Weak 
Terrorist Ties,'' Terrorism and Political Violence, Vol. 23, p. 203, 
citing Gabrial Weimann, Terror on the Internet: The New Arena, The New 
Challenges, Washington, DC: US Institute of Peace Press, 2006.
---------------------------------------------------------------------------
    Government might begin with an assessment of the current actual 
threat. Al-Qaeda's overall recruiting efforts have not produced a 
significant result. On-line jihadism is low-yield ore. Cases of real 
internet recruitment are rare. Appropriate authorities are able to 
successfully engage in attribution operations as new on-line jihadists 
emerge, and the FBI has had achieved remarkable success in using the 
internet to detect conspiracies of one.
    A discussion of how American military commands and intelligence 
agencies wage war in cyberspace lie beyond the scope of this hearing. 
Theoretically, the strategies may include monitoring on-line chatter, 
disrupting or infiltrating websites, intervening overtly or covertly to 
challenge jihadist arguments, even setting up false-front networks to 
attract would-be terrorists. Meanwhile, the terrorist communications 
offer a valuable source of intelligence. Instead of legislating 
restrictions, a more pragmatic approach would aim at facilitating 
intelligence collection and criminal investigations.
    The internet and social media are part of today's battlefield. But 
as of now, the immediate risks posed by al-Qaeda's on-line campaign do 
not justify attempting to impose controls that could be costly to 
enforce and produce unintended consequences. But as the contest 
continues, the situation warrants continued monitoring for signals of 
new dangers.

    Mr. Meehan. Thank you, Mr. Jenkins, and thanks to each of 
the witnesses for your insightful testimony. I know you are the 
ones who have been tracking this activity for some period of 
time. So I now recognize myself for 5 minutes of questions.
    Let me just ask the panel, we have been living with the 
internet now for some time, and it has expanded and grown. Are 
these social networks game-changers in any way with respect to 
the world of terrorism? Or is this just another manifestation, 
as Mr. Jenkins talked about, with individuals who in some ways 
are living in a cyberworld of, I think you used the language, 
virtual reality. I mean how much of the real threat that we are 
seeing on this communications that is taking place within the 
world of Facebook and YouTube with a community of those who are 
wanting to share the message of jihad? Mr. McCants, let me ask 
you.
    Mr. McCants. Thank you. I don't think it is a game-changer 
in the sense that it is leading more people to become 
terrorists. Certainly like-minded individuals are finding it 
much easier to connect with one another, but I don't think we 
are seeing a rapid increase in their numbers. I agree with the 
other two speakers. It is a pretty small number.
    I will say that it is hard to answer your question with 
good data and I think this is one of the main problems 
confronting those who are researching this topic. There is very 
little quantitative studies that have been done of 
radicalization on-line, and it is striking given that how 
quantifiable the internet is.
    Mr. Meehan. How do you know somebody has been radicalized? 
That is the difficulty because I think the testimony was that 
there is a community of individuals that effectively have found 
themselves and they communicate among themselves, but how do we 
know where somebody has moved out of the virtual world and into 
a point which they may carry out an act of jihad, or is it, 
just as you said, follow the smoke and you might find the ones 
that go from aspiration to taking actual steps?
    Mr. McCants. I think so and I think that is a question that 
intelligence organizations are better-positioned to answer but 
for analysts I think you can get pretty far just following the 
trail of propaganda, looking at its distribution. Much of the 
focus is on these older discussion forums. I think for a number 
of the people who study this stuff it is sort of late to come 
to the realization that a lot of the discussion is shifting 
toward these more closed social networking sites like Facebook, 
where it is a lot more difficult to gain access. You can't just 
make a friend request and expect it to be answered.
    So I think it poses a real research problem for analysts on 
the outside and an intelligence-gathering problem for the U.S. 
Government.
    Mr. Meehan. As you answer the questions, Mr. Weisburd, I 
will turn to you, are we getting to a point where in time those 
who really do want to, the official folks that want to 
communicate, do they find sort of this is polluted by all the 
wannabes that are out there at this point in time?
    Mr. Weisburd. If they found it to be polluted, if the 
message was diluted sufficiently that might be beneficial to us 
and detrimental to them. I think though getting back to the 
point of who is it who is merely aspirational, who is it who is 
moving to the next step, the internet is only very rarely going 
to provide you with sufficient indications that that is going 
on. The internet is not an isolated place. Everything that 
happens on-line involves people sitting behind a computer 
screen sitting at the keyboard. So understanding those people 
and taking investigations, if they start on-line off-line can 
be an important aid in doing threat assessment, which is really 
what this all comes down to. We can find extremists on-line. We 
can find where they are located. But when you have to 
prioritize with limited resources who you investigate and who 
you do not or who you apply more resources to and who you do 
not, indications of how you should do that on-line will be few 
and far between. It really requires a more holistic view of the 
person that you are looking at.
    Mr. Meehan. Mr. Jenkins, you talked a little bit about the 
do-it-yourself terrorists that are sort of being invited by 
these forums, driving down to that. Is this the real, I mean 
the limited threat that we are seeing by virtue of this 
expansion into the world of social media?
    Mr. Jenkins. Thus far it has been. Look, terrorists and 
ordinary criminals are always going to be ahead of us in 
exploiting any new technology. Government is always going to be 
behind on this because we don't invent laws for crimes that 
haven't yet occurred. So while they move into exploiting new 
technologies, we have to figure out ways that we can continue 
to keep up with them.
    In fact, your original question, this isn't really a game-
changer on this, but we do have to figure out ways that we can 
keep up with it in terms of our criminal investigations.
    Thus far, in terms of trying to separate who is going to go 
down the path of jihad versus those who are simply going to be, 
invent an avatar and beat their chests in these various sites 
about what they would, what they intend to do, thus far the 
authorities have been pretty good at identifying people and 
indeed moving them into situations where, in fact, their 
intentions----
    Mr. Meehan. One last question because my time is expiring, 
but are we moving them sometimes? Do we find them and then 
create the opportunity and then someone almost lures them into 
taking those next substantive steps that actually turn into 
purported steps toward acts of terrorism?
    Mr. Jenkins. I would hesitate to use the word ``lure'' 
because I don't think we want to get into the issue here of 
entrapment. But certainly by identifying individuals and 
creating opportunities for them to engage in dialogue with 
people who they think are al-Qaeda, a number of these terrorist 
operations that have been uncovered, these terrorist plots, 
were when individuals thought they had connected with a group. 
It turned out for them to be the wrong group. Instead of being 
al-Qaeda it was the FBI. But we can legitimately, I think, 
probe those intentions and see just how far these people are 
willing to go.
    In most cases, although we don't have, we don't have 
numbers of dropouts, we have no way of counting those who take 
the off-ramp, but those who have followed through turn out 
again, to echo what my fellow participants here have said, 
turns out to be a very, very small number. If we are looking 
for something like whether it is .00001 percent or add a zero 
or subtract a zero, that is still a very tiny number. That also 
means, however, that it is an investigative challenge.
    Mr. Meehan. Thank you, Mr. Jenkins. I now turn to the 
Ranking Member, Ms. Speier for her questions.
    Ms. Speier. Mr. Chairman, thank you, and thank you to our 
witnesses. I was pleasantly surprised by the consistency of 
your testimony today, because I was expecting, frankly, that 
there would be a fair amount of discussion seeking to have 
these various sites taken down. But almost to a person you have 
said basically that these are tools for law enforcement to use, 
that it would be far more problematic to take them down than to 
leave them up and that for the most part these aspirants to the 
extent that they are don't come to it via the internet, they 
are already there and then just get confirmation of what they 
believe. Is that a fair statement, would you say?
    Mr. Jenkins. You know, look, it is not as if the internet 
is not a vector of an al-Qaeda infection. Instead the 
individuals come to it as seekers. They are looking for 
something and therefore they search through these sites and 
find sites that resonate with their belief. The internet will 
put them in touch with other people. It will make them a part 
of a broader community, an on-line community. It will reinforce 
their radicalization. But by itself, the internet doesn't get 
them all the way there. In fact, one thing I think is important 
here, a lot of the plots that are being discovered are 
conspiracies of one individual. It is when people had the 
requirement that they actually--before the internet, actually 
had to meet other people, we know in looking at the history of 
these plots that peer pressure, face-to-face peer pressure 
plays an important role. It doesn't have the same power on the 
internet, as I say, because you can turn it off whenever you 
want to. So you can in a sense play at jihadism and you are not 
propelled by that face-to-face peer pressure.
    So the ability to participate as an individual, even the 
on-line instruction, while it is important, in the Pimentel 
case it is important, at the same time, again if you look at 
the most serious plots, the most serious plots had at least one 
individual that had hands-on training. So in terms of action, 
it is still face-to-face contact and hands-on training that 
gets people all the way there.
    Ms. Speier. Okay, so having said that, let me ask each of 
you this question. Is there anything that should keep us up at 
night relative to the internet as a source of jihadist 
fomentation?
    Mr. McCants. No. We are just not seeing the numbers that 
would warrant that kind of worry. Again, if there were better 
research based on good data showing that there were a large 
number of people that were being swayed by this propaganda, 
that would cause me worry, and you would want to monitor their 
activities, but I don't think we even see reason, have reason 
to believe that a large number of people are even being swayed 
much less going the extra step of taking action.
    Ms. Speier. Mr. Weisburd.
    Mr. Weisburd. I find the idea that on my laptop I have 
information that I will find out after the fact is tied to, I 
will have some link between somebody who is involved in 
terrorism who I already know is connected to somebody I didn't 
know. I find that I have got a few thousand people out there 
who some among them are almost certain to become involved in 
terrorism. Who among them is it? I don't know. I really can't 
tell from looking on-line who is going to be the next shooter 
of a bus full of servicemen, for example.
    On the other hand, I think what all of this revolves around 
is that involvement in terrorism is complicated. We tend to, I 
think, underestimate how difficult it is. There are many 
different factors that need to come into play in order for 
somebody to successfully get involved in terrorism and there 
seem to be very many inhibitions, things that get in the way of 
people becoming involved in terrorism. This is good news for 
us. I think if we were going to study the issue, the area to 
study is not so much what is it that enables somebody to become 
involved in terrorism, but what is it that keeps so many other 
people from not getting involved in terrorism, not even 
proceeding into terrorism when they are already what we call 
radicalized. That I think for us is a more productive way to 
proceed.
    Ms. Speier. Thank you. I yield back.
    Mr. Meehan. Thank you, Ranking Member Speier. Now I turn to 
the gentleman from Missouri, Mr. Long.
    Mr. Long. Thank you, Mr. Chairman. Mr. McCants, you were 
talking about most people are fireproof now to zero zero zero 
zero, and you recommend to put out the fire first. How do you 
go about putting that fire out as far as--I mean, is this the 
type of thing the FBI is involved in, that it is doing now?
    Mr. McCants. Yes, sir. That is exactly what I mean. I think 
it is their job to identify where this material on-line is 
being most intensively discussed and distributed to figure out 
who is behind those discussions and that distribution and then 
to watch them, watch them carefully to see if they are going to 
connect with people that are engaged in actual criminal 
activity or if they may decide like a Zachary Chesser from this 
area to go off and fight for a terrorist organization. But they 
are the ones, at least domestically, who are best placed to 
keep tabs on what is happening on-line.
    Mr. Long. Following that up, by you are saying that we need 
better research, and you can research anything on the internet, 
you can find out how many 6-foot-2, blond-headed, left-handed 
people, with one blue eye and one green eye go to certain 
websites. So what is the problem with the research?
    Mr. McCants. I think at the moment a lot of the research is 
either focused on the content of the propaganda or it is 
focused on people that are already about to engage in criminal 
activity and the sort of thing I am interested in is finding 
that smoke trail. For example, Ayman Zawahiri comes out with a 
statement, I think he did so recently, just track it on-line, 
figure out which forums has it gone to, who has been sharing it 
with one another----
    Mr. Long. Why is that difficult? Like I say, why is the 
research so difficult?
    Mr. McCants. I don't think the research is difficult. It s 
a matter of having the manpower and the interest in doing it. 
So far, that has been lacking.
    Mr. Long. Okay. Then Mr. Weisburd, Inspire magazine, is it 
deceased along with al-Awlaki, or is it still a publication?
    Mr. Weisburd. The name Inspire magazine can certainly be 
revived. It would probably require somebody in al-Qaeda in 
Arabian Peninsula giving permission at least for that to happen 
since it was their product. But Inspire magazine was really the 
culmination of some years of work both on the part of Mr. Al-
Awlaki and the part of Mr. Khan. As I said, neither of these 
gentlemen is easy to replace. The skills required to produce, 
to gather together the content to turn out a magazine on a 
regular basis are nontrivial. Certainly the hardware, the 
computers that they using to produce it for all I know were in 
the vehicle they were in when it was hit by the missile. So you 
have none of the little bits and pieces that turn out to be a 
magazine at the end of the day.
    It could be revived. I don't believe it would be the same 
because of the quality of the personnel who were involved in 
the original incarnation should there be further incarnations 
of it. But as a thing in itself and as an expression of al-
Awlaki and Khan and what they were doing, as I said, that 
Inspire magazine is deceased.
    Mr. Long. Al-Awlaki will be so difficult to replace, and I 
have heard that before from other people in testimony, but what 
is your assessment? Why will he be as difficult as it seems? He 
is pretty high-profile, and what was unique to him that would 
prevent something like that from happening in the future?
    Mr. Weisburd. He was particularly good at taking the core 
message of what they describe as a global jihad and 
synthesizing it and sort of speaking directly to his followers 
in plain terms and language they could understand. You hear 
that response from the people who followed him, that they 
listened to Anwar al-Awlaki, and he made everything clear. The 
rest of it was maybe a little more complicated, but you could 
follow Anwar al-Awlaki's arguments.
    The other thing to remember about al-Awlaki is that because 
he worked in English first and foremost, his material was 
accessible to everybody who doesn't read and write and speak 
Arabic, which is a much larger potential audience for his 
message because when it comes to people who are say in 
Indonesia or people who are in Turkey or people who are in 
Europe or the United States, English becomes the common 
language, it is the language they use in on-line discourse, it 
is on English language sites that they gather, it is on English 
language sites that they collect. Among English-speaking 
leading jihadists, there really is nobody who comes to mind 
readily who has quite what al-Awlaki had.
    Mr. Long. Thank you and I yield back.
    Mr. Meehan. Thank you, Mr. Long. I now turn to the 
gentleman from New York, Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman. Just a couple of 
things, one of the most influential forces in the entire world, 
the Arab Spring of last year, amazingly was an 83-year-old 
retired professor, former Harvard professor by the name of 
Eugene Sharp. Eugene Sharp wrote a book called From 
Dictatorship to Democracy. Because of social media, Twitter, 
Facebook, YouTube, his ideas that were written and developed 
over a 20-year period were available to young 20-year-olds, 
revolutionaries in the streets of Tahrir Square in Egypt. I 
think the point here is that when you look at social media, 
Twitter, Facebook, YouTube, these are all commodities. These 
are tools of collaboration. The only thing that you can't 
commoditize is the imagination that you bring to these tools of 
collaboration.
    In Tom Friedman's book, The World is Flat, one chapter is 
dedicated to the whole notion, and he says that, the chapter is 
called 11/9 or 9/11, on 11/9/1989 the Berlin Wall fell. We all 
know what happened on 9/11. He says in a chapter of this book 
that in 1999, two airlines were started because of the tools of 
collaboration, social media, the ability to outsource services 
that we never knew existed before. One was started by an 
entrepreneur from Salt Lake City by the name of David Neeleman. 
He started JetBlue airlines. He outsourced the establishment of 
a new fleet of jets to an American company called Boeing. He 
outsourced the financing of his new airline to American 
financiers in the Southwest. He financed the reservation system 
to housewives and retirees sitting in their homes in Salt Lake 
City. You call JetBlue airlines and you are talking to a 
retiree who is in his living room taking your reservation and 
built one of the most successful airlines in the history of the 
world.
    But we also know from the 9/11 report another airline was 
started in Kandahar, Afghanistan by Osama bin Laden. He 
outsourced the planning of his plot to Khalid Sheikh Mohammed. 
He outsourced the pilot training to small flight schools in 
Miami. He outsourced the financing to financiers in United Arab 
Emirates.
    The point is that both airlines were designed to fly into 
New York City, JetBlue to JFK to bring loved ones together, to 
promote commerce, to be a force for good in the world, and al-
Qaeda into Lower Manhattan to exact a death and destruction 
beyond human compensation.
    The point is that these tools of collaboration are 
available to everybody, for organization, for aspirational 
purposes. What matters most and what is most elusive and most 
difficult to deal with is the imagination that you bring to 
these tools of collaboration and how do we as a free society 
best influence whether or not the imagination brought to these 
tools of collaboration that are available to everybody are for 
good or evil?
    I would just ask you to comment on that.
    Mr. Jenkins. It is an interesting comparison although in 
terms of 9/11, they were able to succeed because the al-Qaeda 
of that day was a much more centralized enterprise, despite the 
fact that it outsourced these various components. I mean Khalid 
Sheikh Mohammed was in al-Qaeda's central core. They had 
readily accessible training camps that brought from around the 
world would-be jihadists a continuing talent show from which 
they could select people for missions. The finances came into a 
central point. In other words, there was a lot more centrality 
and coordinating of possibilities in the al-Qaeda of 9/11 than 
the al-Qaeda of today.
    One of the things we have succeeded in doing in 10 years is 
dispersing those training camps and pounding on that al-Qaeda 
central core and dispersing this. So it is a very different 
kind of organization today.
    Can the these tools be used to attract all sorts of varying 
talent? Yes. Samir Khan represents a new generation that came 
along. Anwar al-Awlaki did. If you cast the net broadly, they 
are--and this is one of the dangers that the internet does 
propose--you can cast your net very, very broadly. It may be 
low-yield ore, but you are going to look to bring together some 
talent here and there.
    What they are having difficulty with, however, is still 
creating or recreating that kind of connectivity that enables 
them to carry out a strategic operation on the scale of 9/11. 
So instead we get smaller-scale plots, smaller-scale attacks 
and, as indicated by one of the other witnesses, even the 
recognition that failure is a contribution to the cause. Now 
that is lowering the threshold considerably.
    We are going to be dealing with that for a long time. But I 
think there has been progress in destroying their capacity to 
carry out these kind of centrally directed operations.
    Mr. Meehan. Thank you, Mr. Higgins. I turn to the gentleman 
from Minnesota, Mr. Cravaack.
    Mr. Cravaack. Thank you, Mr. Chairman. Thank you for the 
panel, for being here today. I very much appreciate your 
insight. It seems, and correct me if I am wrong, but it seems 
at least right now that a social media is more an echo chamber 
where people that are, like you said, Mr. Weisburd, is kind of 
just feeding off of each other. Would that be a fair 
assumption?
    Mr. Weisburd. The jihadist forums in particular as opposed 
to the later social media sites, say like Facebook or YouTube, 
the forums are echo chamber, absolutely. Dissenting opinion is 
simply not allowed. I think the reason why for example YouTube 
is perceived as something of a risk is that people who are--it 
is where jihadist content can be put in front of a mainstream 
audience, and so there is always some concern that this content 
is going to be appealing to some people who might otherwise not 
be exposed to it, who have no idea where the jihadist forums 
are, don't know where to go or cannot get into them. How great 
a risk that is I think is easily overstated. As Mr. McCants 
said, people tend to be, as he put it, fireproofed. There are 
all these inhibitions in terms of getting involved in terrorist 
activity. So I am not particularly alarmed about it. But I 
would not think it fair to describe say YouTube as an echo 
chamber. In terms of countermeasures it is useful to note that 
as well because unlike on a jihadist forum where I can't 
confront somebody with their extremism, on YouTube, YouTube is 
not going to remove people on their website, users of their 
website because they are too extreme, okay, YouTube is not 
going to intervene in that. So you have the opportunity to 
interact with people on a site like YouTube that you don't have 
on the jihadist forums precisely because YouTube is not 
controlled by al-Qaeda as opposed to the forums. So there is an 
opportunity there.
    Mr. Cravaack. Would both other panelists agree with that?
    Mr. McCants. Yes, I would agree. It is striking to me that 
after 10 years with two wars in the Middle East and all of the 
turmoil that they have caused such a fertile field for 
grievance to grow, and the growth of all of this social media 
for people with these grievances to connect, and yet you still 
have a very small number of people who are responding 
positively to al-Qaeda's message, and of them an even smaller 
slice that are willing and able to undertake violence. To me 
that is what is striking about al-Qaeda supporters using social 
media, is that, yes, they are connecting with one another, but 
it is such a small number and they are able to undertake such 
few attacks in this country.
    Mr. Cravaack. Thank you. Mr. Jenkins, do you feel the same 
way?
    Mr. Jenkins. I would agree with that. Despite the 
developments we have seen, the dramatic developments in the 
internet in the last 10, 15 years, and despite this intense 
retail campaign by al-Qaeda, and even recruiting of native-born 
communicators who understand an American audience and can 
communicate in an effective way, they are not selling a lot of 
cars. I mean, as a marketing operation this is not really 
working for them, and as I say, it may in fact be a 
distraction.
    Now, that doesn't mean, however, that we ought to be 
sanguine about the future on this. This is something that 
requires continued monitoring. One thing that we probably need 
to be concerned about is that to what extent can they translate 
those who have a desire to connect via the internet and to do 
something but not to take the personal risks of carrying out a 
bombing, what sort of malevolent mischief can they get up to on 
the internet itself? Can they move from denial of service 
attacks to, if they go in that direction, can they move in the 
direction of even sabotage via the internet?
    Right now I think that is a bit of a reach, but this is not 
something that we ignore because we are doing well so far. I 
think this is something that we have to continually watch, see 
what the trends are and maintain our ability to try to 
intercept it going in depending on what direction it goes in.
    That doesn't mean shut down sites. What it means is that 
our intelligence and our ability to operate in this new 
technological environment has to be equal to theirs.
    Mr. Cravaack. Thank you for your comments. Moving forward 
then, what I am hearing from you is that we should monitor the 
situation and use it as an intelligence-gathering operation. 
Thank you, sir, and I am out of time. I yield back.
    Mr. Meehan. Thank you, Mr. Cravaack. I just have one 
follow-up question myself. Mr. Jenkins, you were talking about 
an issue which did strike me as you were describing in your 
earlier testimony the virtual, almost aspirational level in 
which people can check in and check out of the conversation, 
but in that virtual world the one connection that we have there 
is to our infrastructure, to other kinds of things where they 
are connected to the internet. What is the possibility or 
likelihood of somebody continuing down that path and playing 
the game, but for the first time they really are connecting to 
infrastructure that we have here in the United States?
    Mr. Jenkins. I wouldn't be able to comment on the 
probability of that. That is a question that calls for 
prophecy. But certainly we have to accept that as a possibility 
and continue to watch this. If the internet and social media 
are able to attract a large number of individuals, then there 
are going to be among that people of diverse capabilities and 
talents. So there is a possibility in a sense of if you have 
that many coming in of a mutation in some direction that could 
put us off running in a new direction. So we are dealing with 
fast-moving technology and we are dealing with a large 
population of individuals most of whom don't strap on bombs to 
themselves, and that is the positive. But will they find other 
ways of satisfying their desires to contribute beyond simply 
talking about this? That is something we want to watch for. So 
that becomes an intelligence concern as well.
    Ms. Speier. Maybe just one last question, Mr. Chairman. 
Based on what you have testified to, do we look at the five 
guys from Virginia as just being unusual in that it appears 
that they were radicalized on the internet and then went to 
Pakistan to seek training, correct?
    Mr. Weisburd. I think the key point of that is that they 
were five guys who knew each other in the real world and then 
they were also using the internet. But the fact that there was 
a group of them who could come together and collectively get it 
together to go off to Pakistan is the significant part. For one 
individual to go off to Pakistan to try and go to a training 
camp would be scary for that lone individual. It requires a lot 
of courage basically to try and do something that risky. Five 
individuals can collectively sort of get their act together to 
go and try and do that. That is really I think the key. That is 
what you look for in investigations. You are looking for people 
who have some sort of group, you know who are part of a group 
that is moving forward, because for an individual to engage in 
terrorism it is much more difficult than for a group of people. 
Organizations are much more effective than these disparate 
groups.
    Ms. Speier. All right. Thank you.
    Mr. Meehan. I want to thank the witnesses for your valuable 
testimony and the Members for their questions. The Members of 
the committee may have some additional questions for witnesses. 
We will ask if they do submit those to you, you do your best to 
respond if you can. The hearing record will be open and held as 
such for 10 days.
    So without objection, the committee stands adjourned. Thank 
you for your testimony.
    [Whereupon, at 3:10 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

  Statement of Evan F. Kohlmann with Josh Lefkowitz and Laith Alkhouri
                            December 6, 2011
the antisocial network: countering the use of on-line social networking 
            technologies by foreign terrorist organizations
    Though the term ``social networking'' tends to conjure up immediate 
visions of Facebook and Twitter, the origins of the term are far less 
humble. In the era before the existence of the internet, social 
networking was the process of conventional human interaction that took 
place in key locations like schools, marketplaces, religious centers, 
and sports events. Consequently, for traditional terrorist 
organizations like al-Qaeda's first generation, the critical social 
networking hubs consisted of secretive guesthouses, a handful of 
notoriously extremist mosques, and fixed training camps scattered 
alongside the Afghan-Pakistani border.
    In the wake of the September 11, 2001 terrorist attacks on the 
United States, these conventional hubs were quickly targeted by the 
United States and its allies. Under overwhelming pressure, training 
camps were shut down, guesthouses raided, and notorious recruiters 
jailed. Al-Qaeda Inc. was seemingly put out of business. Yet, as new 
generations have come of age in the internet era, the al-Qaeda 
organization has spread its on-line presence, establishing a tenacious 
beachhead in cyberspace. In the face of constant pressure from U.S. law 
enforcement and intelligence agencies, al-Qaeda has defiantly organized 
a cabal of critical jihadi-oriented on-line social networking forums. 
Likewise, its members, allies, and supporters heavily populate 
conventional services like YouTube and Facebook. And for those who make 
contact with groups like al-Qaeda and the Pakistani Taliban through 
these services, the reality is no less meaningful than having done so 
in person. This is the primary emerging frontier of al-Qaeda 
recruitment and financing.
    In fact, the word ``emerging'' hardly captures the reality of what 
is actually happening right now on the internet. Each week, new 
internet personalities disappear from the web on a mission to live out 
their outlandish jihadi fantasies. Flashpoint Global Partners has 
identified at least 120 such individuals (including U.S. nationals) who 
have graduated from being mere ``pajama-hideen'' to taking a real role 
in terrorist activity over the past 7 years. Of these 120 hardcore 
extremists, more than half are now dead--killed in a barrage of 
Predator drone strikes, failed bomb-making activities, and in 
gunbattles with the U.S. military and various other ``infidel'' 
adversaries. The numbers increase dramatically each month. On August 
14, 2011, users on the radical ``Ansar al-Mujahideen'' chat forum were 
notified that one of their fellow members, ``Hafid Salahudeen'', had 
been killed in a U.S. drone missile attack in Pakistan's restive 
Waziristan region along the Afghan border.\1\ Only 1 week later, on 
August 23, 2011, another ``Ansar al-Mujahideen'' user ``Khattab 76'' 
was reported dead after clashes with the Egyptian military in the Sinai 
Peninsula, where he had gone to ``fight the Zionists.''\2\ According to 
Ansar forum administrators, inspired by what he saw on the web, 
``Khattab 76'' had made several previous failed efforts to join al-
Qaeda in both Iraq and Afghanistan.\3\ On September 18, 2011, 
moderators on al-Qaeda's premiere ``Shamukh'' web forum advised their 
comrades that user ``Qutaiba'' had departed for Algeria to join al-
Qaeda in the Islamic Maghreb (AQIM). They quoted a final message from 
him sent over the internet: ``I am here amongst the mujahideen in the 
Islamic Maghreb . . . I advise my beloved ones to join the convoy 
before it is too late . . . Your brothers in AQIM are waiting for 
you.''\4\
---------------------------------------------------------------------------
    \1\ http://www.as-ansar.com/vb/showthread.php?t=46237. August 14, 
2011.
    \2\ http://www.as-ansar.com/vb/showthread.php?t=46873. August 23, 
2011.
    \3\ http://www.as-ansar.com/vb/showthread.php?t=46873. August 23, 
2011.
    \4\ http://www.shamikh1.info/vb/showthread.php?t=127866. September 
18, 2011.
---------------------------------------------------------------------------
    Arguably, the most famous individual to self-recruit on the 
internet using al-Qaeda's social networking websites was a young 
Jordanian doctor named Humam al-Balawi (a.k.a. ``Abu Dujanah al-
Khorasani''). On December 30, 2009, al-Balawi--a former administrator 
on top-tier al-Qaeda social networking forums--blew himself up at a 
secret CIA base along the Afghan-Pakistani border.\5\ At the time, CIA 
and Jordanian intelligence agents believed they had successfully 
recruited al-Balawi as a double agent to help hunt down Dr. Ayman al-
Zawahiri and other top al-Qaeda figures. In fact, al-Balawi was 
offering a starkly different perspective to his associates on the 
jihadi web forums. In an interview published on al-Qaeda's ``Al-
Hesbah'' forum in September 2009, only 3 months previous, al-Balawi 
appealed, ``How can I encourage people to join the jihad while I'm 
staying away from it? . . . How do I become a burning wick for others 
follow the light of? Can any sane person accept that? Not me.''\6\ As 
for al-Qaeda's social networks, he crowed, ``I left behind on the 
forums some brothers who are dearer to me than members of my own 
family. When I meet any mujahid here who knows about the forums, I rush 
to ask him who he knows from al-Hesbah--as he might be one of those 
whom we loved in the cause of Allah, from amongst the administrators or 
members, and I would hug him as one brother longing for another.''\7\ 
These now-prophetic warning signs were ignored by many at the time, who 
dismissed al-Balawi's threats as merely inflated internet rhetoric. It 
came at an enormous cost--seven CIA agents killed, including some of 
the agency's top experts on al-Qaeda.
---------------------------------------------------------------------------
    \5\ Oppel, Richard A. Jr., Mark Mazetti, and Souad Mekhennet. 
``Attacker in Afghanistan Was a Double Agent.'' New York Times. January 
4, 2010.
    \6\ ``Vanguards of Khorasan'' Magazine. Vol. 1; Issue 15 (September 
2009).
    \7\ ``Vanguards of Khorasan'' Magazine. Vol. 1; Issue 15 (September 
2009).
---------------------------------------------------------------------------
    Al-Qaeda itself is well aware of the key role that jihadi web 
forums are playing in recruiting a new generation of militants willing 
to sacrifice themselves on its behalf. No longer are internet-based 
social networks the exclusive domain of aspiring, would-be terrorist 
neophytes. Indeed, the veteran Yemeni explosives expert accused by the 
U.S. Government of helping organize al-Balawi's deadly suicide bombing 
attack, Hussain al-Hussami, was likewise an active user on the Al-
Hesbah on-line forum.\8\ On October 1, 2009, he posted a request on the 
forum on behalf of ``the Jalaludeen Haqqani Organization'': ``dear 
brothers, I have some Shariah and military guides printed in the 
Russian language, and I want to translate them into Arabic. If you can 
assist me, whether with software, websites, or translators, may Allah 
reward you generously.''\9\
---------------------------------------------------------------------------
    \8\ Baldor, Lolita and Matt Apuzzo. ``Top Al Qaeda Operative 
Reportedly Killed In U.S. Drone Attack.'' Associated Press. March 17, 
2010.
    \9\ http://www.alfaloja.net/vb/showthread.php?t=86082. October 1, 
2009.
---------------------------------------------------------------------------
    Recognition of the brave new world of terrorist communications and 
recruitment has reached the highest echelons of al-Qaeda. In June 2010, 
the group released an audio message from Shaykh Mustafa Abu al-Yazid--
third-in-command behind Usama Bin Laden and Ayman al-Zawahiri--hailing 
``my brothers--the shadowy knights of the [jihadi] media, a school 
whose alumni includes the hero `Abu Dujanah al-Khorasani' . . . and 
those who remain and continue their efforts and sacrifices'' and 
calling on them ``to stand in the trench that Allah has chosen them for 
their own well-being . . . You are the thundering voice of jihad, its 
mighty arrows, and its roaring weapons that have caused so much concern 
amongst politicians at the White House.''\10\ Yet, perhaps what is most 
startling about this phenomenon is the sharp increase in the use of 
brand-name U.S. commercial social networking services such as YouTube, 
Twitter, and Facebook by terrorist organizations and their supporters. 
On password-protected top-tier al-Qaeda web forums, contributors are 
boasting that ``YouTube is among the most important media platforms in 
supporting the mujahideen, as it is ranked third in the world with more 
than 70 million daily visitors.''\11\ This is reflected in the 
increasing occurrence of hardcore jihadi videos hosted by YouTube as 
evidenced in Federal terrorism cases.
---------------------------------------------------------------------------
    \10\ As-Sahab Media Foundation. ``He Who Equips a Fighter Has Waged 
Battle Himself, by the Mujahid Shaykh Mustafa Abu al-Yazid-May Allah 
Accept Him.'' First released: June 15, 2010.
    \11\ http://www.al-faloja.info/vb/showthread.php?t=62982. May 16, 
2009.
---------------------------------------------------------------------------
  <bullet> On February 1, 2011, Colleen R. LaRose (aka ``Jihad Jane'') 
        pled guilty to charges in the Eastern District of Pennsylvania, 
        including conspiring to provide material support to 
        terrorists.\12\ LaRose was an unusually prolific presence on 
        YouTube; court documents highlighted a particular posting--
        under the name ``JihadJane''--in which she indicated she was 
        ``desperate to do something somehow to help'' suffering 
        Muslims.\13\
---------------------------------------------------------------------------
    \12\ ``Pennsylvania Woman Pleads Guilty in Plot to Recruit Violent 
Jihadist Fighters and to Commit Murder Overseas''. U.S. Department of 
Justice Press Release. February 1, 2011.
    \13\ U.S. v. LaRose. Eastern District of Pennsylvania. Criminal No. 
10-123. Superseding Indictment. Filed April 1, 2010.
---------------------------------------------------------------------------
  <bullet> On February 24, 2011, Northern Virginia resident Zachary 
        Chesser was sentenced to 25 years in prison ``for communicating 
        threats against the writers of the South Park television show, 
        soliciting violent jihadists to desensitize law enforcement, 
        and attempting to provide material support to Al-Shabaab, a 
        designated foreign terrorist organization.''\14\ According to 
        court filings, ``Chesser . . . started his own YouTube.com 
        homepage, utilizing userID LearnTeachFightDie, where he posted 
        videos and hosted discussions. Chesser explained that this name 
        perfectly symbolized his philosophy at the time: Learn Islam, 
        teach Islam, fight for Islam, and die in the name of Islam . . 
        . ''. After closing that account, ``he then opened a YouTube 
        site utilizing user name AIQuranWaAlaHadeeth.''\15\
---------------------------------------------------------------------------
    \14\ ``Virginia Man Sentenced to 25 Years in Prison for Providing 
Material Support and Encouraging Violent Jihadists to Kill U.S. 
Citizens.'' U.S. Department of Justice Press Release. February 24, 
2011.
    \15\ U.S. v. Chesser. Eastern District of Virginia. Criminal No. 
1:10mj504. Affidavit of FBI Special Agent Mary Brandt Kinder. Filed 
July 21, 2010.
---------------------------------------------------------------------------
  <bullet> Joseph Jeffrey Brice was charged in May 2011 for making and 
        detonating an Improvised Explosive Device--consisting of TATP, 
        APAN, and ANFO--along a highway in Washington State. According 
        to court filings, Brice--who was seriously injured in the 
        blast--set up a YouTube channel that ``was used to post videos 
        that depicted the use of explosives. Some of these videos 
        contained the embedded logo of the Al-TawhidWal Jihad (al-Qaeda 
        in Iraq) and a jihad chant soundtrack, known as Nashid . . . 
        two of them depicted the use of explosives in the Clarkston, 
        Washington vicinity.'' He also posted numerous comments on 
        YouTube. For example, on January 8, 2011, in response to the 
        shooting of Congresswoman Gifford, he wrote, `` . . . as long 
        as it's one more dead American kuffar, what difference does it 
        make to me if she is a democrat or a gop?'' On December 27, 
        2010, he wrote, ``NPED [non-primary explosives detonator] can 
        now be purchased in most states legally through pyrotechnic 
        dealers.''\16\
---------------------------------------------------------------------------
    \16\ Re: 538 Riverview Boulevard No. 3. Clarkston, WA. 99403. 
Affidavit of FBI Special Agent Leland C. MeEuen. May 6, 2011.
---------------------------------------------------------------------------
  <bullet> On December 2, 2011, Virginia resident Jubair Ahmad pled 
        guilty to providing material support to Lashkar-e-Taiba 
        (LeT).\17\ According to DOJ, ``in September 2010, Jubair 
        produced and uploaded a propaganda video to YouTube on behalf 
        of LeT, after communications with a person named `Talha.' In a 
        subsequent conversation with another person, Jubair identified 
        Talha as Talha Saeed, the son of LeT leader Hafiz Mohammed 
        Saeed. Talha and Jubair allegedly communicated about the 
        images, music, and audio that Jubair was to use to make the 
        video. The final video contained images of LeT leader Hafiz 
        Saeed, so-called jihadi martyrs, and armored trucks exploding 
        after having been hit by improvised explosive devices.''\18\
---------------------------------------------------------------------------
    \17\ ``Pakistani National Living in Woodbridge Pleads Guilty to 
Providing Material Support to Terrorist Organization.'' U.S. Department 
of Justice Press Release. December 2, 2011.
    \18\ ``Woodbridge Man Charged with Providing Material Support to 
Terrorist Organization''. U.S. Department of Justice Press Release. 
September 2, 2011.
---------------------------------------------------------------------------
    Nor has this phenomenon been limited to the United States. In the 
United Kingdom, a 21-year-old woman, Roshanara Choudhry, made headlines 
in May 2010 when she stabbed and attempted to assassinate British MP 
Stephen Timms at a community center in East London. According to 
British authorities, ``When interviewed by police, Choudhry said she 
stabbed Mr Timms because he voted for the Iraq war and she wanted to 
achieve `punishment' and `to get revenge for the people of Iraq'.''\19\ 
In her police interview, she explained that she ``wanted to be a 
martyr'' because ``that's the best way to die.'' She further told the 
interviewer that she had adopted that perspective after listening to 
lectures by Yemeni-American cleric Anwar al-Awlaki, killed in a U.S. 
drone strike in Yemen in September 2011. Asked how she found out about 
al-Awlaki, she explained, ``On the internet . . . if you go on YouTube, 
there's a lot of his videos there and if you do a search they just come 
up. I wasn't searching for him, I just came across him. I used to watch 
videos that people used to put up about like how they became 
Muslim.''\20\
---------------------------------------------------------------------------
    \19\ ``Woman sentenced to life imprisonment for attempted murder of 
MP''. Metropolitan Police Service Press Release. November 3, 2010.
    \20\ Roshonara Choudhry police interview. Interview conducted on 
May 14, 2010, in Forest Gate police station.
---------------------------------------------------------------------------
    It is often forgotten that YouTube is not merely a video hosting 
site, but also a formidable social networking forum. Contributors can 
draw the attention of registered subscribers who then are able to 
comment on video uploads and communicate back and forth with the 
original source. Users subscribe to each other's feeds based on mutual 
interests--in this case, various aspects of al-Qaeda and violent 
extremism. The process is so efficient and precise that it has 
repeatedly attracted the interest of the Pakistani Taliban, not merely 
to spread propaganda, but also to engage in a dialogue with viewers and 
even recruit those interested in joining a foreign terrorist 
organization. On December 9, 2009, five young Muslim-American men from 
the Washington, DC area were arrested by authorities in the Pakistani 
town of Sargodha. The men were accused of attempting to join al-Qaeda 
forces on the Afghan-Pakistani border. According to a Pakistani police 
report quoted by ABC News and the New York Times, a Taliban recruiter 
first made contact with the group via Ahmed Abdullah Minni, who had 
``repeatedly posted comments on YouTube praising videos showing attacks 
on American troops.''\21\ The 20-year-old Minni had allegedly ``become 
a regular feature'' on YouTube with his campaign of on-line vitriol--so 
much so that a Pakistani Taliban recruiter known as ``Saifullah'' took 
an interest and began writing back to him.\22\
---------------------------------------------------------------------------
    \21\ Shane, Scott. ``Web Posts Began Tale of Detained Americans.'' 
New York Times. December 14, 2009.
    \22\ See: ``Interrogation Report: Profiles of the Foreigners 
held''. Abbas Majeed Khan Marwat PSP, ASP/UT SARGODHA. Available at: 
http://a.abcnews.com/images/Blotter/ht_interrogation_report_091211.pdf.
---------------------------------------------------------------------------
    The Pakistani Taliban carried on their brazen recruitment campaign 
using YouTube in May 2010. Within days of a failed car bombing in Times 
Square, New York by Faisal Shahzad, a naturalized American recruited by 
the Pakistani Taliban, the group published a video recording featuring 
its leader Hakimullah Mehsud boasting of its role in the would-be 
attack.\23\ The video was posted by an official Taliban on-line courier 
``TehreekeTaliban'' registered as a contributor on YouTube, who engaged 
in a back-and-forth discussion with critics and supporters in the 
comment section on the video. One respondent asked, ``what is he 
saying? Can someone translate?'' The courier replied, ``subtitles are 
in English, you can easily understand inshaALLAH.'' When another viewer 
condemned the Taliban for their role in the Times Square incident, 
``TehreekeTaliban'' insisted, ``I would recommend you to read Quran 
again with good translation and . . . to do learn . . . from a good 
shaykh like Imam Anwar Al-Awlaki. You can download his lectures from 
net, just search google.''\24\
---------------------------------------------------------------------------
    \23\ http://www.youtube.com/user/TehreekeTaliban. May 2, 2010.
    \24\ http://www.youtube.com/user/TehreekeTaliban. May 2, 2010.
---------------------------------------------------------------------------
    As the social networking website Facebook has quickly become a 
ubiquitous part of many Americans' on-line activity, it too has enjoyed 
increased significance as an amplifier for violent extremist viewpoints 
and a way for al-Qaeda supporters to identify each other and build 
budding relationships. In March 2010, one user on al-Qaeda's then-
preeminent ``Fallujah Islamic Network'' appealed, ``the least we can do 
to support the Mujahideen is to distribute their statements and 
releases.'' He added, ``we wish from the brothers to also distribute 
the statement via Youtube and widely . . . and on Facebook.''\25\ The 
user offered a cautionary note about using Facebook: ``the suggested 
method is to always access it via proxy, otherwise you're in danger. 
Make one e-mail on Yahoo that's dedicated for the [on-line] battle 
only. After creating the email, register on Facebook under an pseudonym 
with the email you created, and via which the account will be 
activated. Search for all the profiles and groups.''\26\
---------------------------------------------------------------------------
    \25\ http://www.al-faloja.info/vb/showthread.php?t=105942. March 6, 
2010.
    \26\ http://www.al-faloja.info/vb/showthread.php?t=105942. March 6, 
2010.
---------------------------------------------------------------------------
    Like YouTube, the role of Facebook in terrorism investigations can 
be charted as it increasingly surfaces as evidence in Federal criminal 
indictments. In December 2010, Baltimore resident Antonio Martinez was 
charged with plotting to attack an Armed Forces recruiting station in 
Catonsville, Maryland. As recounted in a press release from the U.S. 
Department of Justice, ``Martinez was arrested . . . after he attempted 
to remotely detonate what he believed to be explosives in a vehicle 
parked in the Armed Forces recruiting station parking lot.''\27\ 
According to the USDOJ:
---------------------------------------------------------------------------
    \27\ ``Maryland Man Charged in Plot to Attack Armed Forces 
Recruiting Center''. U.S. Department of Justice Press Release. December 
8, 2010.

``On September 29, 2010, Martinez publicly posted on his Facebook 
account a statement calling for violence to stop the oppression of 
Muslims, and that on October 1, 2010, he publicly posted a message 
stating that he hates any person who opposes Allah and his prophet . . 
. On October 8, 2010, an FBI confidential source (CS) brought these 
public postings to the attention of the FBI. On October 10, 2010, in 
response to these postings, the CS began communicating with Martinez 
through Facebook . . . During Martinez' discussions with the CS over 
Martinez' Facebook page, Martinez wrote that he wanted to go to 
Pakistan or Afghanistan, that it was his dream to be among the ranks of 
the mujahideen, and that he hoped Allah would open a door for him 
---------------------------------------------------------------------------
because all he thinks about is jihad.''

    Additionally, on October 17, 2011, Martinez allegedly posted the 
following on his Facebook page: ``I love Sheikh Anwar al Awalki for the 
sake of ALLAH. A real inspiration[sic] for the Ummah, I dont care if he 
is on the terrorist list! May ALLAH give him Kireameen.'' Court filings 
further note that his Facebook ``Friends'' included ``two radical 
Islamist websites affiliated with a radical group called Revolution 
Muslim: Call to Islam--a United Kingdom-based on-line movement 
dedicated to the implementation of Sharia law world-wide (as stated on 
its website); and Authentic Tawheed--a pro-jihad group providing links 
on its website to materials put out by known terrorists such as Anwar 
al-Aulaqi.''\28\
---------------------------------------------------------------------------
    \28\ U.S. v. Antonio Martinez. District of Maryland. Case No. 10-
4761 JKB. Complaint. Filed December 8, 2010 and U.S. v. Antonio 
Martinez. District of Maryland. Case No. 10-4761 JKB. Government 
Response to Defendant's Motions to Dismiss Indictment and Suppress 
Statements and Seized Evidence. Filed September 27, 2011.
---------------------------------------------------------------------------
    There is no doubt that YouTube and Facebook have been making 
genuine efforts in an attempt to thwart the on-line activities of al-
Qaeda supporters and violent extremists. However, a quick search for 
jihadi videos on YouTube is a fairly compelling demonstration that 
these efforts have thus far been insufficient in addressing the 
problem. On-line jihadists have reacted with mirth at YouTube's overly-
optimistic strategy of relying on its own users to self-police and help 
to flag individual illicit contributions. The service has, in fact, 
added a category to its content feedback flags labeled ``Promotes 
terrorism''--that which is ``intended to incite violence . . . This 
means . . . videos on things like instructional bomb making . . . [or] 
sniper attacks. Any depictions of such content . . . shouldn't be 
designed to help or encourage others to imitate them.''\29\ Repeated 
violations can lead to a user being kicked off YouTube, whose stated 
policy is that ``if your account is terminated you are prohibited from 
creating any new accounts.''\30\ Nonetheless, there is minimal 
enforcement of this policy and users with terminated accounts often 
simply create new accounts under different user names, many of which 
are only minor variations of their blocked accounts. A user on al-
Qaeda's top-tier ``Fallujah Islamic Network'' instructed his associates 
in May 2009 that if on-line adversaries start to ``search for jihad 
clips . . . so that users can vote to delete them . . . then we must 
make them pull out their hair by re-uploading deleted scenes, 
commenting on them, and supporting them. Remember that YouTube is the 
biggest media podium, so the jihad videos should appear right in the 
face of those who enter it.''\31\
---------------------------------------------------------------------------
    \29\ http://www.google.com/support/youtube/bin/
answer.py?hl=en&answer=139838. Last accessed December 2, 2011.
    \30\ http://www.youtube.com/t/community_guidelines. Last accessed 
December 2, 2011.
    \31\ http://www.al-faloja.info/vb/showthread.php?t=62982. May 16, 
2009.
---------------------------------------------------------------------------
    YouTube and its parent company Google have defended their seeming 
inability to prevent their video sharing service from being manipulated 
by al-Qaeda supporters and other violent extremists. According to 
YouTube, ``More than 24 hours of video are uploaded every minute.''\32\ 
Due to the sheer volume of new videos being posted each day, YouTube 
asserts it is ``simply not possible'' to prescreen content \33\ and 
thus relies on its user community to flag inappropriate material. Yet, 
with this amount of incoming new material, it is equally fanciful to 
assume that YouTube's user community possesses the subject matter 
expertise or contextual background to effectively block the spread of 
violent extremist content. Without some sort of automated filtering 
process, it does not seem realistic to believe that the use of YouTube 
by terrorists and jihadi extremists will begin to decrease.
---------------------------------------------------------------------------
    \32\ http://www.youtube.com/t/faq. Last accessed December 2, 2011.
    \33\ Benett, Brian. ``YouTube is Letting Users Decide on Terrorism-
Related Videos.'' Los Angeles Times. December 12, 2010.
---------------------------------------------------------------------------
    If Google is indeed serious about addressing this problem, the 
company should start by leveraging its own existing technological 
solutions to ensure known violent extremist content is not distributed 
via YouTube. A quick comparison with how YouTube manages copyright 
violations is instructive. YouTube utilizes a system called ``Content 
ID'' whereby ``Rights holders deliver YouTube reference files (audio-
only or video) of content they own, metadata describing that content, 
and policies on what they want YouTube to do when we find a match. We 
compare videos uploaded to YouTube against those reference files. Our 
technology automatically identifies your content and applies your 
preferred policy: Monetize, track, or block.''\34\ Users deemed to be 
acting in violation of copyright law are ``required to attend `YouTube 
Copyright School,' which involves watching a copyright tutorial and 
passing a quiz to show that you've paid attention and understood the 
content before uploading more content to YouTube.''\35\ It is hardly a 
great jump in logic to apply this same strategy to the large, but 
hardly unmanageable subset of notorious open-source terrorist 
propaganda videos--archives of which are maintained by private 
organizations like Flashpoint Global Partners. YouTube has been able to 
effectively block the majority of pornographic video contributions, 
reportedly through the use of specific algorithms; similar algorithms 
should be developed to stem the flow of violent extremist content.
---------------------------------------------------------------------------
    \34\ http://www.youtube.com/t/contentid. Last accessed December 2, 
2011.
    \35\ http://youtube-global.blogspot.com/2011/04/youtube-copyright-
education-remixed.html. Last accessed December 2, 2011.
---------------------------------------------------------------------------
    In a further development, YouTube's parent Google has recently 
acquired Pitt-Patt, a Carnegie-Mellon spin-off that is considered to 
have market-leading facial recognition software.\36\ This technology 
can theoretically be leveraged to identify offending video content and 
user profile photos that match those of known terrorists, leading to at 
least an automatic flagging--if not full deregistration--of the 
account. Avatar images featuring depictions of high-profile terrorists, 
such as Usama bin Laden and Anwar al-Awlaki, or the watermarked logos 
of groups such as Shabaab al-Mujahideen and al-Qaeda in Iraq, are 
unfortunately nowadays common on YouTube. However, when paired with the 
right image recognition filter, these watermarks and avatars can 
provide a powerful, effective roadmap to identify suspect contributors 
engaged in illicit activity. Similar technology could potentially also 
be deployed with similar effect by Facebook, Twitter, and other 
commercial social networking services beset with infiltration by 
supporters of violent extremism.
---------------------------------------------------------------------------
    \36\ http://www.pittpatt.com. Last accessed December 2, 2011.
---------------------------------------------------------------------------
    If real progress is to be made towards cleansing on-line social 
networks of terrorists and their supporters, the U.S. Congress must 
bring pressure to bear on commercial providers who are themselves being 
victimized in the process to start acting more like aggrieved victims 
instead of nonchalant bystanders. While any proposed curbs on the 
freedom of speech should always naturally give one cause for a moment's 
hesitation, in this case, it is unclear why official terrorist 
recruitment material is any less of an odious concern for YouTube or 
Facebook than pornography. Unfortunately, current U.S. law gives few 
incentives for companies like YouTube for volunteering information on 
illicit activity, or even cooperating when requested by U.S. law 
enforcement. If such companies are to be trusted to self-police their 
own professed commitments to fighting hate speech, then they must be 
held to a public standard which reflects the importance of that not 
unsubstantial responsibility.

                                 <all>

</pre></body></html>
